United States
Department of   Office of Inspector General
Agriculture
                Semiannual Report to
Office of
Inspector
General
                Congress
No. 56
November 2006
                FY 2006 – 2nd Half
Key OIG Accomplishments in This Reporting Period
RESULTS IN KEY CATEGORIES

SUMMARY OF AUDIT ACTIVITIES
Reports Issued				
 Number of Reports.................................................................................................. 41
 Number of Recommendations............................................................................... 171
Management Decisions Made
 Number of Reports.................................................................................................. 33
 Number of Recommendations............................................................................... 214
Total Dollar Impact (Millions)
Of Management-Decided Reports.........................................................................$35.6
 Questioned/Unsupported Costs.........................................................................$31.2
 Funds To Be Put to Better Use............................................................................. $4.4

SUMMARY OF INVESTIGATIVE ACTIVITIES
Reports Issued........................................................................................................ 127
Impact of Investigations
 Indictments........................................................................................................... 217
 Convictions............................................................................................................ 181
 Arrests................................................................................................................... 632
Total Dollar Impact (Millions)...............................................................................$78.5
Administrative Sanctions......................................................................................... 150


OIG MAJOR USDA MANAGEMENT CHALLENGES (August 2006)
n      Interagency Communications, Coordination, and Program Integration Need Improvement

n      Implementation of Strong, Integrated Management Control (Internal Control) Systems Still Needed

n      Continuing Improvements Needed in Information Technology (IT) Security

n      Implementation of Improper Payment Act Requirements Needs Improvement
n      Departmental Efforts and Initiatives in Homeland Security Need To Be Maintained

n      Departmentwide Efforts and Initiatives on Genetically Engineered Organisms (GEO) Need To Be Strengthened

n      USDA’s Response to the 2005 Hurricanes Needs Ongoing Oversight
Contents

Safety, Security, and Public Health. . . . . . . . . . . . . . . . . . . . . 1

Integrity of Benefits and Entitlements Programs . . . . . . . . . . . 8

Management of Public Resources. . . . . . . . . . . . . . . . . . . . 17

Gauging the Impact of the OIG . . . . . . . . . . . . . . . . . . . . . . 28

Abbreviations of Organizations . . . . . . . . . . . . . . . . . . . . . . 48
                                                                 Goal 1




Safety, Security, and Public Health

OIG Strategic Goal 1:                                                     1 during this reporting period and a total of 12 during
                                                                          the full fiscal year. OIG’s investigations under Goal 1
                                                                          yielded 26 indictments, 27 convictions, and $978,809 in
Support USDA in the enhancement of safety                                 monetary results during this reporting period and a total
and security measures to protect USDA and                                 of 34 indictments, 37 convictions, and about $1.3 million
agricultural resources and in related public                              in monetary results during the full fiscal year.
health concerns
                                                                          EXAMPLES OF AUDIT AND INVESTIGATIVE
To help USDA and the American people meet the critical                    WORK FOR GOAL 1
challenges in safety, security, and public health, it is our
responsibility in OIG to provide independent, professional                Comprehensive Approach to Surveillance
audits and investigations in these areas. Our work addresses              and Monitoring of Avian Influenza (AI)
such issues as the ongoing challenges of protecting the                   Needed
American public and the American herd from the spread
of bovine spongiform encephalopathy (BSE, or more                         In our June 2006 review of the Animal and Plant Health
commonly “mad cow disease”), strengthening controls                       Inspection Service’s (APHIS) oversight of AI, we concluded
over genetically engineered organisms, preparing for and                  that APHIS has made commendable progress in developing
responding to avian influenza, and investigating crimes by                plans and establishing the networks necessary to prepare for,
or against Federal employees on Federal property.                         and respond to, outbreaks of AI. However, APHIS has not
                                                                          yet developed a comprehensive approach for surveillance
   In the second half of fiscal year (FY) 2006, we devoted                and monitoring of AI in domestic poultry. APHIS relies
13.2 percent of our total audit and investigative resources               on a variety of voluntary State and commercial programs
to Goal 1, with 91.2 percent of these resources assigned                  to monitor and test domestic poultry and wild birds.
to critical/high impact work. A total of 91.1 percent of                  Because these programs are voluntary, APHIS does not
our audit recommendations under Goal 1 resulted in                        know the extent of surveillance activity in place and is not
management decision within 1 year, and 41.7 percent of                    gathering consistent data to enable it to draw conclusions,
our investigative cases had criminal, civil, or administrative            to permit the detection of changes in epidemiological
action taken. OIG issued 6 audit reports under Goal                       parameters (e.g., subtype of AI or rate of prevalence), or to




      Management Challenges Addressed Under Goal 1

      n     Interagency Communications, Coordination, and Program Integration Need Improvement (also under Goals 2 and 3)

      n     Continuing Improvements Needed in IT Security (also under Goal 3)

      n     Departmental Efforts and Initiatives in Homeland Security Need To Be Maintained

      n     Departmentwide Efforts and Initiatives on GEOs Need To Be Strengthened




                                                                 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half          
                                                               Goal 1




report incidents of AI in accordance with new international             Oregon Woman Sentenced to Prison for
trade requirements.
                                                                        Illegal Sale of Ocelot
   On December 12, 2005, we had issued a management
                                                                        In April 2006, an Oregon woman was sentenced to 30 days
alert to APHIS that outlined concerns regarding the
                                                                        in prison, 9 months of house detention, and 12 months of
development of a comprehensive AI surveillance plan,
                                                                        supervised release for illegally offering to sell an ocelot, a
identifying gaps in sampling surveillance and assessing
                                                                        rare leopard species protected under the Federal Endangered
risk as a basis for determining the need for additional
                                                                        Species Act. The woman also was ordered to make a $25,000
sampling.
                                                                        community service payment to the World Wildlife Fund
                                                                        North American Endangered Species Trafficking Program.
   Our final report found that, in regard to its National AI
                                                                        As few as 70 ocelots are known to remain in the wild in the
Preparedness and Response Plan, APHIS needs to provide
                                                                        United States.
additional guidance on preparing and responding to highly
pathogenic AI (HPAI) or notifiable AI outbreaks in live bird
                                                                        Husband and Wife Kennel Owners Sentenced
markets or other “off farm” environments. APHIS needs
                                                                        for Mail Fraud Scheme
to clarify actions that employees should take in obtaining
and administering necessary vaccines and anti-virals in
                                                                        In July 2006, the husband and wife owners of a USDA-
the event that a culling operation for HPAI occurs. Also,
                                                                        licensed kennel in Arkansas were sentenced after pleading
APHIS needs to finalize interagency coordinated processes
                                                                        guilty to charges of mail fraud and failure to report
and procedures for notifying owners of susceptible animals
                                                                        a felony, respectively. The husband was sentenced to
of current infectivity risks, and the necessary protective
                                                                        6 months of home detention with 36 months of probation
actions they should take when an outbreak of AI occurs.
                                                                        and was fined $7,500, while his wife was sentenced to
In its response, APHIS described a number of initiatives
                                                                        24 months of probation and fined $2,500. They also
planned and in-process to address our concerns. (Audit
                                                                        forfeited $200,000 in cash and 700 acres of land valued at
Report No. 33099-11-Hy, Oversight of AI)
                                                                        $1.1 million and paid $42,400 in partial reimbursements
                                                                        to 12 animal rescue organizations. Stemming from Animal
                                                                        Welfare Act violations, the owners paid APHIS $262,700
                                                                        in fines and forfeited their USDA licenses. From January
                                                                        1999 to December 2003, the owners made approximately
                                                                        $3.5 million by selling dogs and cats to USDA-licensed
                                                                        research facilities nationwide. They prepared false purchase
                                                                        documents with fictitious names and addresses and paid a
                                                                        local veterinarian to sign blank APHIS health certificates
                                                                        and to not conduct health inspections of animals before
                                                                        shipment. This investigation was worked jointly with the
                                                                        U.S. Postal Inspection Service.




      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half
                                                                Goal 1




APHIS’ Oversight of Bovine Tuberculosis                                  Owner and Warehouse Manager Sentenced
Eradication Program (BTEP) Needs                                         for Violating Federal Food Safety Laws
Improvements
                                                                         In April 2006, the owner of a Kansas deli-processing
We found that APHIS had made some improvements to                        company and his warehouse manager were each sentenced
BTEP since the Secretary’s Emergency Declaration in                      to 24 months of probation and fined $2,300 for conspiracy
October 2000, but weaknesses in oversight and controls                   to create at least 58 false laboratory reports, which showed
made it difficult for APHIS to timely detect and eradicate               fictitious Listeria monocytogenes results. The firm was
the disease. APHIS’ status system—important because it                   required to monitor levels of Listeria, a potentially fatal
dictates the extent of Federal testing and movement controls             pathogenic bacterium that can be found in ready-to-eat
for cattle in each State or zone—did not accurately represent            food products. The pair intentionally provided false and
tuberculosis (TB) in the United States because it did not                misleading documents to FSIS as evidence that the required
capture most of the TB cases. From FY 2001 through 2005,                 sampling was conducted and that Listeria was not present
272 TB-infected cattle were detected through slaughter                   at the facility.
surveillance, but APHIS excluded 96 percent of them from
the status system because it could not locate the source herd            FSIS Must Ensure That All Eligible Meat
and find an additional infected animal in that herd.                     and Poultry Establishments Are Included in
                                                                         Laboratory Testing Programs
   In addition, approximately 75 percent of the TB-
infected cattle detected through slaughter surveillance                  We found a significant number of establishments were
originated in Mexico, but these animals spent 5 to 14                    excluded from the Salmonella sampling database because
months at U.S. farms and feedlots with no restrictions to                of ineffective controls to identify eligible establishments
prevent commingling with domestic cattle. Cattle imported                and also because district office personnel did not fully
from Mexico are tested before entry, but APHIS had not                   understand the process for including establishments in
established controls to compensate for the 3- to 12- month               the database. The agency manually updated its sampling
incubation period for TB.                                                database and had insufficient controls to ensure that all
                                                                         required establishments were included. At one district we
   We recommended that APHIS perform program                             visited, 28 percent of the FSIS establishments had been
reviews periodically; review and approve States’ annual and              excluded because district personnel did not understand the
monthly reports, use those reports to assess areas of highest            process for notifying the appropriate FSIS personnel about
risk, and work to minimize those risks; enhance its two                  the eligibility of establishments for the sampling program.
key BTEP control functions, the status classification and                The problem was particularly apparent at State-inspected
slaughter surveillance systems; and strengthen movement                  establishments under the Talmadge-Aiken Act because
and testing controls to address the disease’s incubation                 State officials were not notified of the requirements. We also
period. In addition, APHIS and the Food Safety and                       found that establishments whose slaughter or processing
Inspection Service (FSIS) could amend their June 2005                    activity falls below a specific threshold, and establishments
memorandum of understanding (MOU) to further solidify                    producing certain types of raw ground beef products,
recent improvements to detect TB. APHIS and FSIS                         including raw ground beef sausages and meatballs, are not
agreed to take corrective actions based on our findings                  tested for E. coli O157:H7.
and recommendations. (Audit Report No. 50601-9-Ch,
Effectiveness of Controls Over BTEP)                                        We recommended that FSIS (1) strengthen its
                                                                         procedures to ensure that all establishments subject to
                                                                         Salmonella testing are identified and included in the testing
                                                                         database, (2) develop a risk assessment to determine which




                                                                USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half            
                                                                 Goal 1




establishments need to be tested for Salmonella, and (3)                  (4) confirm that laboratories adhere to standards at “least
obtain scientific advice to evaluate whether its policy of not            equal to” Federal requirements. We also recommended
testing certain raw ground beef products for E. coli O157:                that FSIS eliminate the backlog of onsite fiscal reviews,
H7 contamination should be continued. Agency officials                    implement controls to consistently and timely perform
generally agreed with the findings and recommendations.                   yearend grant closeouts of State MPI programs, and seek
They have initiated corrective actions to include all                     prompt recovery of $260,201 in excess funds held by
establishments in the Salmonella testing program, and to                  the Texas MPI program. FSIS responded positively to
begin a new testing program to strengthen controls against                the recommendations, and management decision was
E. coli contamination. We continue to work with FSIS on                   reached and corrective action initiated on 6 of the 12
the issue of whether small-volume establishments should                   recommendations. (Audit Report No. 24005-1-At, State-
be tested for Salmonella. (Audit Report No. 24601-7-Ch,                   Federal Cooperative Inspection Program)
Review of Pathogen Reduction Enforcement Program
Sampling Procedures)                                                      Forest Service (FS) Has Not Implemented
                                                                          Critical Security Controls Over Explosives,
FSIS Oversight of State Meat and Poultry                                  Munitions, and Weapons
Inspection (MPI) Programs
Needs Improvements                                                        In a followup to our FY 2002 audit of explosives, munitions,
                                                                          and weapons stored on National Forest System lands, we
We determined that FSIS was not providing timely                          found that FS had not fully implemented 11 of 24 critical
oversight of State MPI programs. From October 2003                        security recommendations. This is an important safety
through June 2005, FSIS had conducted only 8 of 28 initial                issue as FS is responsible for explosives, munitions, and
onsite reviews of State MPI programs. After our fieldwork                 weapons—used to build roads and fire lines, remove trees
began and since July 2005, FSIS began reviews of 16 more                  and rocks, and control avalanches—in 335 facilities.
State MPI programs, and developed plans to conduct the
4 remaining reviews prior to the end of FY 2006. FSIS                        Our prior recommendations—dealing with explosive/
needs to complete this process, especially since four of the              munitions security standards, inventory, and security
eight programs initially reviewed needed corrective actions               clearances of personnel, as well as recordkeeping controls—
to achieve “at least equal to” Federal standards.                         are designed to prevent and detect potential theft or misuse.
                                                                          This was demonstrated by a recent theft of explosives
   Moreover, FSIS did not perform timely onsite fiscal                    from an FS magazine. Because FS had implemented our
reviews and reviews of new programs and did not timely                    recommendation to maintain an accurate inventory of its
implement its yearend grant closeout procedures to ensure                 explosives, it was quickly able to determine what was stolen,
that State MPI programs promptly returned excess Federal                  which helped Federal law enforcement authorities recover
funds. FSIS had not ensured that Texas returned $260,201                  the explosives.
in excess funds for FY 2004. Such retention of funds by
Texas from FYs 1997 to 2004 resulted in unnecessary                          We recommended that FS assign a high-level official
interest costs of about $100,000 to the U.S. Treasury.                    at the Washington office to be responsible for the overall
                                                                          safety and security of FS’ explosives/munitions program
   We recommended that FSIS establish criteria to                         and establish a realistic timeframe for implementing all
(1) determine how deficiencies in meat processing                         remaining security recommendations. FS concurred with
establishments affect State acceptability determinations,                 our recommendations and assigned responsibility to the
(2) analyze the staffing requirements of State MPI                        Director of the Office of Safety and Occupational Health.
programs, (3) determine whether State MPI programs have                   (Audit Report No. 08601-45-SF, Followup Review of FS
fully implemented employee performance systems, and




      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half
                                                                  Goal 1




Security Over Explosives/Munitions Magazines Located in                    caused by wildfire entrapment or burnover and report to
National Forests)                                                          Congress and the Secretary of Agriculture on the results.
                                                                           This reporting period, two members of WFIT deployed to
Employee Convicted for Bringing Weapons                                    Utah to observe FS and the Bureau of Land Management’s
Into USDA Headquarters                                                     (BLM) Accident Investigation Team after the accidental
                                                                           death of a BLM employee in a burnover on national
After a USDA Office of the Judicial Officer employee was                   forest land. The team members shadowed the Accident
found to be wanted on civil contempt charges related to                    Investigation Team to gain practical experience and prepare
his failure to remit court-ordered funds to his ex-wife, law               for any future investigation required of WFIT.
enforcement authorities recovered two handguns from his
vehicle, parked at USDA headquarters. In January 2006, the
man pled guilty to firearms violations, and was sentenced
to 60 days of imprisonment (suspended) with supervised
probation and fined $200. Administrative action by the
agency is pending.

OIG Emergency Response Programs Maintain
Readiness, Expand Capabilities

OIG’s Emergency Response Team (ERT) responds to and
investigates threats or attacks against the Nation’s food
supply, agriculture infrastructure, or USDA interests; and
provides expertise to government agencies at all levels. ERT
is specifically tasked with carrying out OIG’s responsibilities
under the National Response Plan, Emergency Support
Function 11 (Natural and Cultural Resources and
Historic Properties Protection). During the second half of
FY 2006, ERT attended numerous agroterrorism working
group meetings, and participated in agriculture-related
and AI tabletop exercises. The team members continue
to educate city, county, State, and other Federal agencies
about ERT and its mission. Since May 2006, the team
members have received certifications in Hazardous Waste
Operations and Emergency Response (HAZWOPER)
Level “A” Personal Protective Equipment orientation as
well as Advanced Crime Scene Processing. ERT recently
supported OIG special agents executing a search warrant
at an Oklahoma cockfighting facility by assisting APHIS
in the documentation, depopulation, and sampling of the
game fowl found at the site. A total of 145 game fowl were
collected and tested for AI and Exotic Newcastle Disease.

  OIG’s Wildland Fire Investigations Team (WFIT) is
mandated by law to investigate any FS firefighter deaths




                                                                  USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half         
                                                                 Goal 1




GOVERNMENT WIDE ACTIVITIES – GOAL 1

Review of Legislation, Regulations, Directives, and Memoranda


n     OIG staff reviewed FSIS’ proposed rule entitled                     n   OIG investigators are participating on the AI
      “Availability of Lists of Retail Consignees During Meat                 Implementation Task Group chaired by APHIS’
      or Poultry Product Recalls.” Consumer groups and                        Smuggling Interdiction and Trade Compliance. This
      others have long advocated the public release of                        group comprises representatives from several USDA
      information on where recalled products have been                        agencies, the U.S. Department of Homeland Security’s
      distributed. We generally concurred with the action                     (DHS) Immigration and Customs Enforcement and
      proposed but noted some needed clarification. Section                   Customs and Border Protection (CBP), and the U.S.
      390.10(a) stated that the list of disclosed retail                      Department of the Interior’s Fish and Wildlife Service.
      consignees comprises those that FSIS compiled to                        The group is coordinating Governmentwide activities
      verify the removal of recalled product. This section                    pertaining to smuggling investigations in accordance
      should explain that FSIS uses a statistical sampling                    with the Implementation Plan for the National Strategy
      plan to identify a sample of consignees to verify the                   for Pandemic Influenza. The smuggling of prohibited
      effectiveness of the recall and, therefore, the list                    poultry and poultry products into the United States
      will include only some of the retail consignees.                        could potentially facilitate transmission of HPAI.


Participation on Committees, Working Groups,
and Task Forces


n     OIG participated on the President’s Council on Integrity
      and Efficiency’s (PCIE) Homeland Security Roundtable
      and the Housing Working Group this past year. The
      emphasis has been on the recovery efforts resulting from
      the 2005 hurricanes. In addition, OIG investigators are
      working with the PCIE to update the Peer Review Guide.


n     OIG investigators have actively participated in
      several Department of Justice Hurricane Katrina
      Fraud Task Forces throughout the country.


n     OIG investigators led a USDA Smuggling Working
      Group to coordinate the pertinent regulatory and
      criminal investigative activities of USDA agencies.




     USDA
       USDAOIG
            OIGSEMIANNUAL
                SEMIANNUALREPORT
                           REPORTTO
                                  TOCONGRESS
                                    CONGRESSFY
                                             FY2006
                                                20062nd
                                                     2ndHalf
                                                        Half
                                                            Goal 1




ONGOING AND PLANNED REVIEWS FOR GOAL 1

Topics that will be covered in ongoing or planned reviews under Goal 1 include:

n   USDA’s implementation of the national 	                 n        implementation of flood control dam rehabilitation
    strategy for pandemic influenza (APHIS),                         (Natural Resources Conservation Service (NRCS)),

n   avian influenza testing laboratories (APHIS),           n        USDA progress in enhancing agricultural biosecurity
                                                                     through diagnostic and reporting networks
n   CBP’s agricultural inspection activities (APHIS),
                                                                     (APHIS, FSIS, and Cooperative State Research,
n   controls over permits to import 		                               Education, and Extension Service (CSREES)),
    agricultural products (APHIS),
                                                            n        USDA’s role in the export of genetically engineered
n   animal care inspections of breeders (APHIS),                     agricultural commodities (Foreign Agricultural
                                                                     Service (FAS), Grain Inspection, Packers and
n   egg processing inspection (FSIS),
                                                                     Stockyards Administration (GIPSA), APHIS, and
n   FSIS’ management control system,                                 Agricultural Marketing Service (AMS)),

n   implementation of performance-based inspection          n        USDA controls over genetically engineered
    system enhancements for specified risk                           animals/insects research (APHIS and
    material (SRM) violations and improved                           Agricultural Research Service (ARS)), and
    inspection controls over SRMs (FSIS),
                                                            n        USDA homeland security initiatives (APHIS,
n   Air Safety Program (FS),                                         FSA, Risk Management Agency (RMA), FSIS,
                                                                     and Food and Nutrition Service (FNS)).
n   assessment of FSA’s new port approval and
    inspection process made effective July 1, 2004,




The findings and recommendations from these efforts will be covered in future semiannual reports as the relevant audits
and investigations are completed.




                                                           USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half         
Integrity of Benefits and Entitlements Programs

OIG Strategic Goal 2:                                                 EXAMPLES OF AUDIT AND INVESTIGATIVE
                                                                      WORK FOR GOAL 2
Reduce program vulnerabilities and enhance                            Chicago Store Owner Convicted of
integrity in the delivery of benefits to individuals                  Conspiracy To Provide Material Support
                                                                      to Terrorism Pleads Guilty to Food Stamp
OIG conducts audits and investigations to ensure or restore
                                                                      Trafficking Scheme
integrity in the various benefits and entitlements programs
of USDA, including a variety of programs that provide
                                                                      In August 2006, the owner of a grocery store in Chicago,
payments directly and indirectly to individuals or entities.
                                                                      Illinois, was sentenced to 51 months in prison with
Their intended beneficiaries include the working poor,
                                                                      36 months of supervised release, and was ordered to pay
hurricane and other disaster victims, and schoolchildren,
                                                                      $1.4 million in restitution after pleading guilty to wire fraud
as well as farmers and producers. These programs support
                                                                      and money laundering. From May 1999 through December
nutrition, farm production, and rural development and
                                                                      2000, the store owner had redeemed approximately
involve tens of billions of dollars in outlays for FY 2006.
                                                                      $1.6 million in electronic food stamp benefits and
                                                                      conspired with other persons and unauthorized stores to
   In the second half of FY 2006, we devoted 46.5 percent
                                                                      conduct thousands of illegal electronic food stamp benefit
of our total audit and investigative resources to Goal 2,
                                                                      transactions that resulted in a loss to the Government
with 91.7 percent of these resources assigned to critical/
                                                                      of approximately $1.4 million. In June 2006, the store
high-impact work. A total of 86.2 percent of our audit
                                                                      owner had also pled guilty in Federal court in Florida to
recommendations under Goal 2 resulted in management
                                                                      conspiracy for providing funding to the Palestinian Islamic
decision within 1 year, and 82.7 percent of our investigative
                                                                      Jihad, which is in violation of the International Emergency
cases had criminal, civil, or administrative action taken.
                                                                      Economic Powers Act. In July 2006, the store owner was
OIG issued 18 audit reports under Goal 2 during this
                                                                      sentenced to 37 months in prison for that conviction.
reporting period and a total of 37 audit reports during the
full fiscal year. OIG investigations under Goal 2 yielded 162
indictments, 130 convictions, and about $39.9 million in
                                                                      Massachusetts Woman To Repay Over
monetary results during the reporting period and a total of
                                                                      $435,000 in Civil Fraud Case
257 indictments, 221 convictions, and about $55.9 million
                                                                      In April 2006, a civil judgment totaling $435,798 was
in monetary results during the full fiscal year.



      Management Challenges Addressed Under Goal 2


      n   Interagency Communications, Coordination, and Program Integration Need Improvement (also under Goals 1 and 3)

      n   Implementation of Strong, Integrated Management Control (Internal Control) Systems Still Needed (also under Goal 3)

      n   USDA’s Response to the 2005 Hurricanes Needs Ongoing Oversight (also under Goal 3)




      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half
                                                                Goal 2




entered against a woman who fraudulently received, from                  equipment replacement that would prevent retailers
multiple agencies, social service assistance, including food             from fraudulently obtaining equipment; and (3) States
stamps, Medicaid, housing subsidies, and other income                    to consider, in their proposals to acquire EBT systems,
assistance. She was running a profitable restaurant business,            requests for POS equipment specifications to prevent the
and suspicion was raised after she was caught by U.S.                    illegal removal and unauthorized use of the devices. (Audit
Customs officials trying to smuggle more than $60,000                    Report No. 27099-66-Hy, FNS National Office Oversight
in U.S. currency out of the country to the Dominican                     of EBT Operations)
Republic. This investigation was worked jointly with the
U.S. Department of Housing and Urban Development.                        FSP Anti-Fraud Locator Using EBT Retailer
                                                                         Transactions (ALERT) Watch List System
FNS National Office Oversight of Electronic                              Needs Improvement
Benefits Transfer (EBT) System Access
Controls Needs Strengthening                                             FNS’ ALERT system analyzes data from food stamp
                                                                         transactions to detect patterns that indicate fraud. A
As a follow-on to our January 2001 nationwide audit,                     subsystem, called the Watch List, targets specific stores
we found inadequate control over EBT system access                       for review. We could not achieve our overall objective
still remains a problem. State agencies now deliver Food                 to evaluate the Watch List as a tool for identifying fraud
Stamp Program (FSP) benefits primarily through the EBT                   because the necessary information was not available in the
system. OIG has monitored and audited implementation                     ALERT system. This also precluded FNS from assessing the
of EBT by FNS and States since its inception. Based on our               Watch List’s effectiveness. We found that the system could
earlier work, FNS had agreed to strengthen procedures for                be improved by limiting the number of “false hits” (stores
reviewing and controlling access to State EBT systems and                appearing on the Watch List that do not warrant review).
directed States to conduct semiannual reviews of employee                We recommended that FNS gauge the extent of false hits
access. However, FNS does not independently confirm that                 and minimize them by analyzing data on whether stores
States adequately controlled access. Since January 2001, our             appearing on the Watch List were in fact violating program
audits have identified system access deficiencies in seven               requirements. FNS agreed to our recommendations and
States.                                                                  is working on enhancements to the ALERT system to
                                                                         reduce the number of “false hits” and allow the system’s
   EBT trafficking through the illegal and unauthorized                  effectiveness to be measured. (Audit Report No. 27099-32-
use of Point of Sale (POS) equipment is another weakness.                SF, FSP – ALERT Watch List)
Unscrupulous retailers have circumvented the EBT security
controls by fraudulently obtaining new equipment and/                    Three Family Members Sentenced for Money
or illegally moving existing machines to unauthorized                    Laundering
locations. In their contract proposals to acquire EBT
systems, States were not required to consider equipment                  In September 2005, three employees of a Texas charter
functionality and/or technological specifications that could             school, who were also family members of the school’s
prevent the illegal removal and unauthorized use of existing             superintendent, were sentenced based on their guilty pleas
EBT POS equipment.                                                       to Federal prison terms ranging from 15 to 72 months. In
                                                                         March 2005, the superintendent had died of an apparent
   FNS agreed to require (1) the regional offices to revise              heart attack after he and his employees were criminally
their management evaluations of State EBT operations                     charged. From 1999 through 2001, the four individuals
to include tests of whether the States conducted proper                  had conspired to defraud the National School Lunch and
system access reviews; (2) States to implement, via the                  Breakfast Programs, the U.S. Department of Education,
EBT contract, a formal process for use during EBT POS                    and the Texas Education Agency by inflating attendance




                                                                USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half         
                                                                  Goal 2




records to obtain program funds to which they were not                     FNS Controls Over the Child Nutrition (CN)
entitled. The majority of the approximately $2.5 million in
                                                                           Labeling Program Need Strengthening
Federal funds intended for the welfare of the students was
instead used by the superintendent and his family members
                                                                           FNS has overall administrative authority over the voluntary
for a house, cars, gambling trips to Las Vegas, household
                                                                           CN Labeling Program and is responsible for approving the
furnishings, and real estate. In April 2006, the employees
                                                                           accuracy of the CN label statement. We found that FNS did
were ordered to pay $2 million in restitution, jointly and
                                                                           not implement the necessary controls to deter processors
severally.
                                                                           from using CN labels that had not been approved and
                                                                           did not ensure that processors’ partial quality control
New Jersey School Repays $469,000 in Civil                                 programs (PQCP) adhered to established guidelines. Two
Fraud Settlement                                                           of six processors visited produced CN-labeled products
                                                                           without FNS approval, and one distributed approximately
In a June 2006 civil fraud settlement agreement, a New Jersey              12,500 pounds of mislabeled product. FNS and the
school agreed to repay $469,487 for intentionally claiming                 inspection agencies (FSIS and the Agricultural Marketing
meal reimbursements through the National School Lunch                      Service (AMS)) lacked coordination, and inspectors did
Program (NSLP) on days when classes were not actually in                   not validate whether processors received FNS approval
session. The school submitted numerous false certifications                for their CN labels. The CN Labeling Program also lacks
and information to USDA and the State under NSLP,                          sufficient consequences (such as fines, penalties, and
which resulted in excessive and improper payments.                         suspensions) for processors who abuse requirements for
                                                                           CN-labeled products. Further, all six processors visited had
Additional Guidance Needed for Suppers                                     an FNS-required PQCP, but we identified deficiencies in
Served in Schools                                                          four. In response to our recommendations, FNS agreed to
                                                                           implement procedures to ensure that CN-labeled products
We found that FNS did not ensure the consistent                            are approved by FNS, seek legal counsel from USDA’s Office
application of the meal requirements for the Child and                     of the General Counsel (OGC) and inspection officials to
Adult Care Food Program (CACFP) suppers served in                          impose consequences on abusers, and coordinate with the
schools. Although FNS issued implementing guidance to                      inspection agencies to revise the MOU. (Audit Report No.
the seven eligible States, FNS has not yet issued regulations              27601-13-Hy, CN Labeling Program)
on the provision of at-risk afterschool meals. (An at-risk area
is a school service area that has 50 percent or more approved              The Delta Regional Authority (DRA) Needs To
free and reduced-priced lunch applications.) In addition,                  Improve Controls for Approving, Disbursing,
due to a misinterpretation of a regulatory provision on the                and Monitoring Grants
substitution of school meals and meal service rules permitted
under NSLP, there was inconsistency in the reimbursement                   DRA has made progress toward establishing itself as an
of substituted NSLP meals for at-risk supper meals. FNS                    effective agency; however, our review of its grants for FYs
has issued guidance on the circumstances when NSLP                         2003 and 2004 found that DRA needs to improve its
meals and NSLP meal service rules may be substituted                       controls for approving grant applications, disbursing grant
for CACFP meals served under the at-risk afterschool care                  funds, and monitoring grant projects. DRA, a Federal-State
provisions. A proposed rule to implement at-risk meals                     partnership, helps economically distressed communities in
is in agency clearance. (Audit Report No. 27601-35-Ch,                     eight States develop infrastructure, improve transportation,
CACFP Supper Meals Served in Schools)                                      encourage businesses, and train workers.

                                                                             We questioned a $150,000 feasibility study, which was
                                                                           funded in FY 2003. While our audit concluded that the




  10     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half
                                                                  Goal 2




$150,000 grant for the feasibility study was ineligible,                   ability to collect unauthorized payment subsidies or ensure
DRA disagreed with this conclusion. In order to reach                      that payment subsidies were accurate.
an agreement with DRA, OIG’s Office of Counsel is
examining whether the $150,000 grant for the feasibility                      CSC agreed to conduct a cost-benefit analysis and use
study was in fact eligible for funding by DRA. Additionally                a random sample to determine the overall error rate in its
in FY 2003, DRA disbursed $545,437 to three grantees                       universe of payment subsidies. We are working with CSC to
without first verifying that their costs were documented                   address the use of IRS tax information. (Audit Report No.
and that project-related expenses were allowable. In                       04099-341-At, Single-Family Housing Program Borrower
FY 2004, DRA implemented checklists to help its project                    Income Verification Procedures)
coordinators approve grant applications and disburse funds
according to the agency’s policies and procedures. Four of                 RHS Has Not Fully Implemented OIG
the eight grants reviewed had incomplete checklists for                    Recommendations To Improve Management
determinations of eligibility, and seven were not complete                 Controls in Multibillion-Dollar Loan
for distribution of $220,000 to grantees. In addition, DRA                 Guarantee Program
policy is to conduct field visits for all grants. However, for
the 20 grants sampled, DRA personnel had completed only                    In FY 2004, the Guaranteed Rural Housing Loan Program
2 field visits. We also found that 72 percent of the grantee               (GLP) guaranteed 34,817 loans valued at $3.2 billion in
progress reports and 85 percent of the grantee financial                   order for low-income individuals or households to purchase
reports were late or missing. DRA generally agreed with our                homes in rural areas. In a recent review of RHS actions
findings and recommendations. (Audit Report No. 62099-                     to follow up on recommendations RHS had agreed to in
1-Te, Controls Over Issuance of Appropriated Funds by                      response to our 1999 audit, we found that RHS had not
DRA FYs 2003-2004)                                                         ensured that (1) lenders were informed of common areas
                                                                           of noncompliance regarding approval of loan applications
Improvements Are Needed in Centralized                                     and of ways to help ensure compliance, (2) lenders were
Service Center (CSC) Procedures To Collect                                 submitting loss claim payments for eligible and supported
Unauthorized Payment Subsidies                                             costs only, (3) eligibility maps were current and thus
                                                                           allowed residents only in eligible areas to participate,
Rural Housing Service (RHS) borrowers are eligible to                      (4) lenders were sharing future recoveries from the sale of
receive payment assistance to subsidize their loan payments                inventory properties with RHS, (5) accounts receivable were
based mainly on their income, and RHS’ CSC services                        established and collection efforts pursued for $1.4 million
these direct loans. We reviewed RHS’ controls to ensure the                for paid loss claims in accordance with the Debt Collection
propriety of $357 million in borrower payment subsidies                    Improvement Act of 1996, and (6) appraisals and appraisers
for FY 2004 and concluded that CSC was adequately                          were monitored to ensure fair valuation of properties for
monitoring payment subsidies to ensure their accuracy, but                 which RHS provided guaranteed loans and/or paid loss
improvements are needed. CSC (1) had not performed a                       claims. RHS has implemented permanent corrective
cost-benefit analysis to establish a minimum dollar threshold              actions for four of the six areas of concern, and states that
for collecting unauthorized payment subsidies and used                     permanent corrective action in the other two areas is being
this unsupported dollar threshold in its determination of                  prepared through permanent regulatory modifications.
what percentage of unreported borrower income to refer                     (Audit Report No. 04601-3-At, GLP Followup)
for investigation, (2) used a flawed sampling methodology
to estimate the overall error rate in its universe of payment              FSA Needs To Strengthen Controls Over
subsidies, and (3) did not request tax return information                  Farm-Stored Loan Collateral
from the Internal Revenue Service (IRS) as a tool to verify
borrower incomes. As a result, RHS had not maximized its                   Marketing Assistance Loans (MAL) help farmers store their




                                                                 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half          11
                                                                Goal 2




crops at harvest when prices are low and sell them later at              yields were properly calculated and that State office oversight
more advantageous prices. In response to 2005 Hurricanes                 of county office operations for establishing and verifying DCP
Katrina and Rita and their effect on grain storage, on-                  yields was adequate. While there were some differences in the
ground farm storage was approved for commodities offered                 processes used to establish yields, further audit work was not
as MAL collateral for crop years (CY) 2005 and 2006.                     warranted because the errors we noted in DCP yields and
                                                                         their impact on DCP payments were generally immaterial.
   FSA’s controls were generally adequate, but the agency                (Audit Report No. 03099-196-KC, DCP Yields)
could improve how it secures farm-stored loan collateral.
For instance, due to ambiguities in FSA’s procedures and                 Montana Producer and Loan Officer Pled
regulations, FSA overvalued high-moisture collateral for                 Guilty to Defrauding FSA of $1.4 Million
16 loans by 80 percent, or nearly $1.6 million, and county
offices did not consistently use commodity seals to identify             In March 2006, a Montana producer pled guilty to filing
loan collateral. Moreover, even when regulations were                    false claims with FSA in order to receive program payments
clear, county offices did not always comply with them: 4                 to which he and his partners were not entitled. A former
of 16 county offices did not perform required spot checks                agricultural loan officer also pled guilty to conspiracy to
of loan collateral, 10 of 16 did not complete required                   defraud FSA for his role in assisting the producer. From
loan documents when processing applications for MALs,                    October 1998 through January 2001, the producer
and 1 State and county office made a number of errors                    circumvented program payment limits to fraudulently
(resulting in questioned loans of more than $600,000)                    receive $1.4 million. The private loan officer provided false
when administering MALs to a cooperative marketing                       financial documents to FSA to support the other partners’
association.                                                             participation in the producer’s farming operation. In July
                                                                         2006, the producer was sentenced to serve 10 months in
   FSA agreed to (1) clarify its procedures regarding the MAL            Federal prison, followed by 36 months of probation, and
collateral value of low-quality, high-moisture commodities               was ordered to pay $226,035 in restitution. In August 2006,
and the use of commodity loan seals; (2) take action to                  the former loan officer was sentenced to serve 4 months of
determine and recover the potentially overstated value                   home confinement, followed by 30 months of probation.
of such collateral, as deemed appropriate; (3) strengthen
its systems for performing spot checks of loan collateral                Mother and Son Sentenced for Conversion of
and for completing and reviewing MAL documents; and                      FSA Collateral
(4) provide training to the State and county office that
committed errors administering MALs. (Audit Report No.                   In July 2006, a rancher and her son in Idaho were sentenced
03601-47-Te, Nonrecourse Marketing Assistance Farm-                      after pleading guilty to theft/conversion of 305 head of cattle
Stored Loans)                                                            pledged as collateral to FSA. The mother was sentenced
                                                                         to 36 months of probation with 80 hours of community
Management Controls Adequate for Direct                                  service and ordered to pay $1,085,000 in restitution. The
and Counter-Cyclical Program (DCP) Yields                                son was sentenced to 36 months of probation, ordered
                                                                         to pay joint restitution, and fined $4,000. FSA has a lien
For CYs 2002 through 2007, FSA’s DCP provides direct                     against the ranch, valued at more than $1 million.
payments and market-based counter-cyclical payments
to producers on farms for which payment yields and base                  Producer Illegally Converts $405,000 of USDA
acres were established. Under the 2002 Farm Bill, producers              Funds to Own Use
had a one-time opportunity to update the bases and yields
used to calculate program payments. We determined that                   In August 2006, a Virginia producer was sentenced to
management controls were adequate to ensure updated DCP                  5 months of home detention with 60 months of supervised




  12     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half
                                                                   Goal 2




probation and fined $5,000. Doing business as a corporation,                Two Individuals and Three Corporations
the producer pledged his crop proceeds to secure FSA operating
                                                                            Sentenced in False Claims Scheme
loans from 2001 to 2003. From August 2004 through June
2005, the producer converted FSA security to his own use
                                                                            From January 2000 through December 2000, two
by endorsing 55 checks totaling $405,420, which represented
                                                                            individuals and three corporations in the Texas Panhandle
the proceeds of his crop sales. The producer also forged an
                                                                            fraudulently obtained approximately $400,000 in RMA
FSA representative’s signature on 47 of the 55 checks, which
                                                                            crop insurance indemnity payments and FSA disaster
were payable jointly to the representative and FSA.
                                                                            program payments by shifting their unreported 2000
                                                                            cotton production for program payment purposes. They
Improving the Integrity of the Crop Insurance                               assigned their hidden cotton production to other established
Program                                                                     accounts at a cotton gin owned by one of the individuals.
                                                                            On August 25, 2006, one producer and two corporations
OIG’s audit, investigations, and inspections staffs reviewed                were sentenced. The producer was sentenced to serve
the Federal crop insurance program and, in collaboration                    12 months of imprisonment, followed by 36 months of
with FSA and RMA, identified a number of fraud indicators                   supervised release, and was ordered to pay a $100 fine
or conditions that are often associated with fraud, abuse, and              and $331,291 in restitution. One of the corporations was
mismanagement. We identified two major factors that must                    sentenced to 60 months of probation and ordered to pay
be in place to support the integrity of the crop insurance                  a $400 fine and $203,491 in restitution, and the other
program: effective management controls to ensure program                    corporation was sentenced to 60 months of probation and
operations that meet objectives, and aggressive enforcement                 was ordered to pay a $400 fine and $127,800 in restitution.
through criminal investigations and compliance reviews.                     On September 29, 2006, the last two defendants were both
                                                                            sentenced to 60 months of probation, and each was ordered
We highlighted prior recommendations that the crop                          to pay restitution of $363,775 severally and jointly.
insurance program (1) accelerate plans to create a single
comprehensive information system for crop insurance,                        Former Bank President Sentenced to 108
conservation, and farm programs; (2) increase coordination                  Months in Prison
and communication between RMA and FSA to ensure
more effective growing season inspections; (3) establish an                 In July 2006, after pleading guilty to bank fraud, a former
effective quality control review system to evaluate the private             bank president in Wisconsin was sentenced to serve 108
sector delivery of the Federal crop insurance program; (4)                  months in Federal prison and ordered to pay $13.42 million
strengthen RMA’s oversight and monitoring of the private                    in restitution to the Federal Deposit Insurance Corporation
sector’s application of the quality control review system; (5)              (FDIC), including an immediate payment of $50,000.
establish positive incentives for good delivery performance                 The bank president had participated in a $17 million
by the private sector and strengthen sanctions and penalties                check-kiting scheme (drawing against balances credited
for unacceptable program delivery; (6) continue data-                       to uncollected checks), a $10.3 million loan scheme, and
mining efforts to review Federal crop insurance data; and                   a $2.2 million wire fraud scheme. In the USDA aspect of
(7) increase the use of geographic information systems to                   the case, a Wisconsin farmer converted $500,000 of chattel
monitor producer compliance with program requirements.                      securing his USDA-guaranteed bank loans. The former bank
                                                                            president acknowledged that another USDA-guaranteed
                                                                            loan recipient had more than $300,000 in overdrafts that
                                                                            were not reported to FSA. OIG provided assistance to the
                                                                            Federal Bureau of Investigation (FBI), IRS, and FDIC in
                                                                            this investigation.




                                                                  USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half         13
                                                               Goal 2




False Claims to Commodity Credit
Corporation (CCC) Net Prison Term for
President of Export Company

In August 2006, the president of an export company
in Arizona was sentenced to 12 months and 1 day in
Federal prison and ordered to pay more then $600,000 in
restitution after pleading guilty to submitting false claims
to FAS’ Market Access Program (MAP). MAP uses funds
from USDA’s CCC to aid in the creation, expansion,
and maintenance of foreign markets for U.S. agricultural
products. From January 2001 to October 2003 while
promoting milk and sports drinks in Mexico, the company
president submitted 44 requests for payment totaling more
than $1.3 million to CCC, received more than $600,000 in
USDA reimbursements, and submitted fraudulent checks
in support of his reimbursement claims.

Former Michigan Legislative Assistant
Convicted Again

In May 2006, a former legislative assistant to a U.S.
Congressman from Michigan was found guilty of failing
to appear for a sentencing hearing stemming from a
previous embezzlement conviction. As reported last period,
the former staffer had been convicted of nine counts of
fraud for stealing approximately $40,000 in USDA bank
funds through his involvement with a national farmer’s
organization. In September 2006, the former staffer was
sentenced to serve 76 months in prison, followed by
36 months of supervised release, and was ordered to pay
$162,000 in restitution. This investigation was conducted
jointly with the FBI.




  14    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half
                                                              Goal 2




GOVERNMENTWIDE ACTIVITIES – GOAL 2


Reviews Coordinated With Other Government
Entities

n As part of the PCIE Homeland Security Roundtable,
we continue to look at the Department’s recovery efforts
relating to the 2005 hurricanes. OIG has worked with
other Federal OIGs and agencies, submitted periodic
status reports, participated in numerous “lessons-learned”
surveys, provided to DHS OIG letters outlining issues
for their consideration, and provided final reports to the
roundtable.




                                                             USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half   15
                                                               Goal 2




ONGOING AND PLANNED REVIEWS FOR GOAL 2

Topics that will be covered in ongoing or planned reviews under Goal 2 include:
n    Disaster Food Stamp Program for Hurricanes                         n   Asian soybean rust (RMA),
     Katrina, Rita, and Wilma (FNS),
                                                                        n   Florida Hurricane Disaster Program 	
n    continued monitoring of EBT implementation (FNS),                      crop insurance requirements (RMA),
n    Summer Food Service Program (FNS),                                 n   penalties assessed for erroneous reporting
n    WIC Program in Puerto Rico (FNS),                                      of crop insurance acreage (RMA),

n    FSP retailer authorizations (FNS)                                  n   RMA implementation of $500,000
                                                                            claim decision process,
n    Food Stamp Employment and Training Program (FNS),
                                                                        n   group risk crop insurance and group
n    CACFP (FNS),                                                           risk income protection (RMA),
n    Rural Rental Housing (RRH) maintenance                             n   Adjusted Gross Revenue Program (RMA),
     costs and inspection procedures (RHS),
                                                                        n   RMA’s oversight of approved insurance 	
n    selected Section 538 guaranteed loan projects (RHS),                   provider’s quality control reviews,
n    effectiveness and enforcement of debarment                         n   controls over optional unit provisions (RMA),
     and suspension regulations in USDA,
                                                                        n   RMA’s national operation reviews (RMA),
n    implementation of the Tobacco Transition 	
     Payment (Tobacco Buyout) Program (FSA),                            n   RMA’s controls over catastrophic crop underwriting, and

n    programmatic treatment of crop base on land                        n   RMA prevented planting.
     included in conservation easements (FSA and NRCS),
n    Conservation Reserve Program re-
     enrollments and extensions (FSA),
n    interest assistance on guaranteed farm loans (FSA),
n    emergency loan assistance (FSA),
n    effectiveness of status reviews in assessing producer
     compliance with conservation provisions (NRCS and FSA),
n    crop loss and quality adjustments for
     aflatoxin-infected corn (FSA and RMA),
n    Conservation Security Program
     – program implementation (NRCS),
n    Conservation programs – controls to
     prevent duplicate assistance (NRCS),
n    Farm and Ranch Lands Protection Program – selected
     nongovernmental organizations nationwide (NRCS),
n    adjusted gross income limitation (NRCS and FSA),
n    zero acreage reporting abuse (RMA),




The findings and recommendations from these efforts will be covered in future semiannual reports as the relevant audits and
investigations are completed.




    16   USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half
Management of Public Resources
OIG Strategic Goal 3:                                                     our audit recommendations under Goal 3 resulted in
                                                                          management decision within 1 year, and 80.6 percent of
                                                                          our investigative cases had criminal, civil, or administrative
Increase the efficiency and effectiveness with                            action taken. OIG issued 17 audit reports under Goal 3
which USDA manages and employs public                                     during this reporting period and a total of 39 audit reports
assets and resources, including physical and                              during the full fiscal year. OIG investigations under Goal
information resources                                                     3 yielded 29 indictments, 24 convictions, and about
                                                                          $37.6 million in monetary results during the reporting period
OIG conducts audits and investigations that focus                         and a total of 59 indictments, 40 convictions, and about
on, for example, improved financial management and                        $61.2 million in monetary results during the full fiscal year.
accountability, information technology (IT) security
and management, protection of public assets, employee                     EXAMPLES OF AUDIT AND INVESTIGATIVE WORK
corruption, natural resources, research, and the Government               FOR GOAL 3
Performance and Results Act. Our work in this area is vital
because the Department is entrusted with $128 billion in                  RHS Provided Duplicate Rental Housing
public resources annually and hundreds of billions of dollars             Assistance to Hurricane Victims
more in fixed assets such as the 192 million acres of national
forests and wetlands. The effectiveness and efficiency with               In the aftermath of Hurricanes Katrina and Rita, Rural
which USDA manages its assets are critical. USDA depends                  Development (RD), through RHS, placed 11,000 evacuees
on IT to efficiently and effectively deliver its programs and             into 4,100 RRH apartment units in 45 States and provided
provide meaningful and reliable financial reporting. One of               $2.6 million in emergency rental assistance. We found that
the more significant dangers USDA faces is a cyberattack on               most victims placed into RRH units needed only adequate
its IT infrastructure, whether by terrorists seeking to destroy           housing and not rental assistance because that was provided
unique databases or criminals seeking economic gains.                     by the Federal Emergency Management Agency’s (FEMA)
                                                                          Transitional Housing Assistance Program. Coordination
   In the second half of      FY 2006, we devoted 40.3                    failures between RHS and other Federal agencies caused
percent of our total audit    and investigative resources to              much of the $2.6 million in emergency rental assistance
Goal 3, with 92.1 percent     of these resources assigned to              provided by RHS to be duplicative.
critical/high-impact work.    A total of 91.4 percent of




       Management Challenges Addressed Under Goal 3


       n    Interagency Communications, Coordination, and Program Integration Need Improvement (also under Goals 1 and 2)

       n    Implementation of Strong, Integrated Management Control (Internal Control) Systems Still Needed (also under Goal 2)

       n    Continuing Improvements Needed in IT Security (also under Goal 1)

       n    Implementation of Improper Payment Act Requirements Needs Improvement

       n    USDA’s Response to the 2005 Hurricanes Needs Ongoing Oversight (also under Goal 2)




                                                                  USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half         17
                                                                 Goal 3




   We also found that (1) the RHS database system                         family’s automobiles, and repairs to his home computer
contained generally inaccurate and incomplete information                 (which was purchased by the rural water company); and
on the hurricane victims and the amount of rental assistance;             diverted the rural water company’s purchased merchandise
(2) RHS lacked sufficient controls to identify victims                    and services to his and his family’s use. Also in June 2006,
who used other individuals’ FEMA identifying numbers                      the water authority’s former fiscal officer was sentenced to 24
to obtain housing assistance; (3) RHS did not adequately                  months of probation, fined $5,000, and ordered to perform
monitor the activities of owners and management agents,                   200 hours of community service for aiding the general
so some owners required victims to pay rent for their RRH                 manager in the illegal activities. This investigation was
unit even though the owner had received rental assistance                 conducted jointly with the Ohio Auditor of State’s Office.
for those victims directly from RHS; and (4) some owners
had reclassified pre-existing tenants as hurricane victims                Controls for Maintaining FS’ Infrastructure
when they had no change in income or other circumstances,                 Still Lacking
resulting in unnecessary RRH rental assistance to those
tenants.                                                                  We followed up on audit reports issued in 1998 and
                                                                          determined that FS still lacked effective processes and
   RHS is implementing corrective actions to (1) prepare                  controls to ensure the reliability and validity of the
for future disasters by developing policy and procedures for              deferred maintenance costs recorded in the infrastructure
coordinating actions and sharing computer information                     (INFRA) database. FS had not fully implemented our
related to housing assistance with other Federal agencies that            recommendations, which were intended to strengthen
also provide such assistance and (2) improve the agency’s                 the reliability and accuracy of this information. For
information system and related controls over the accuracy                 example, assessments to evaluate the condition of agency
and completeness of data. (Audit Report No. 04601-13-                     assets were not completed, and data on dams were not
Ch, Controls Over Multi-Family Housing Funds Provided                     complete and timely. In addition, the agency had no
for Hurricane Relief Efforts)                                             strategy for addressing its deferred maintenance backlog.

Water Authority Manager Gets 8 Years in                                      The INFRA database included records on assets that were
Prison                                                                    not assigned to a specific FS location and did not identify
                                                                          assets that were not likely to be repaired. Also, the amounts
In June 2006, the former general manager of a rural water                 reported for deferred maintenance in the Performance and
authority in Ohio, which was a Rural Utilities Service (RUS)              Accountability Report and the INFRA database did not
borrower, was sentenced to 96 months of imprisonment for                  match. We identified a difference of more than $1.2 billion
a variety of illegal activities including bribery, acceptance             between the two systems for roads alone. As a result, the
of gratuities, and false statements. The former official was              information from these systems is less useful for agency
also ordered to pay $88,000 in restitution and will be                    administrators, oversight bodies, and the public. FS agreed
subject to 36-60 months of post-release supervision. The                  with our recommendations; however, we are still working
former general manager accepted bribes (money and home                    with the agency to establish interim milestones and timely
remodeling) and gratuities (hunting trips and hunting                     corrective actions. (Audit Report No. 08601-02-Hy,
and fishing equipment) from vendors and contractors;                      Followup on Recommendations Made on the Maintenance
offered bribes and directed potential witnesses to destroy                of FS’ Infrastructure)
documentary evidence and make false statements to
investigators; directed a vendor to issue checks to a
contractor who in turn wrote checks to him; defrauded the
rural water company by having contractors bill the water
company for the remodeling of his home, the repair of his




  18     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half
                                                                  Goal 3




FS Management Controls To Reduce                                           Stronger Controls Needed To Ensure the
Hazardous Fuels Need Improvement                                           Integrity of Program Contracts System
                                                                           (ProTracts) Data
Effectively treating acres of forest to reduce hazardous fuels
(by thinning trees and brush and removing dead wood) is                    We found that NRCS had not implemented adequate
critical to improving FS’ ability to protect natural resources             controls to ensure the integrity of data maintained in its
and the public. However, FS does not have adequate                         ProTracts system, which may affect its ability to manage
processes to identify, determine the cost-effectiveness of,                its Farm Bill Programs. We found shortcomings with
prioritize, select, and fund hazardous fuels projects; and                 program ownership, physical or logical controls over access
its performance measures and reporting standards do not                    to data and change control processes, security clearances,
allow for qualitative distinctions of the level of need for                and assurance that controls would yield accurate payment
treatment. Thus, there is no way to allocate funds to the                  amounts. Payment amounts were sometimes calculated
most critical projects, and no controls preventing funds                   based on verbal instructions from Headquarters staff. NRCS
from being allocated to projects to achieve targets of acres               agreed to (1) assign program managers as systems and
treated instead of reducing the most risk.                                 information owners for its business-critical applications, (2)
                                                                           establish access control policies in accordance with Federal
   Further, FS’ performance measures and standards do                      guidelines, (3) develop and implement an effective change
not indicate whether the treatment of an acre improved                     control process, (4) establish and implement procedures to
its condition and whether a treatment reduced the risk                     ensure that appropriate security clearances are obtained for
of catastrophic wildland fire. Instead of emphasizing the                  employees and contractors with access to ProTracts, and
achievement of annual targets for number of acres treated,                 (5) establish automated controls within ProTracts to ensure
FS should develop the necessary information and target                     payments are accurately calculated. (Audit Report No.
treatments to areas most at risk. FS agreed with our findings              10501-5-FM, NRCS Application Controls – ProTracts)
and recommendations and has begun implementing
corrective actions. (Audit Report No. 08601-6-At,                          Control Weaknesses Found in NRCS Fleet
Implementation of the Healthy Forests Initiative)                          Operations

Firefighter Sentenced to Prison Term for                                   We found that officials at the NRCS National Office had not
Setting Wildland Fires                                                     performed management reviews of the agency’s motorized
                                                                           vehicle fleet operations—USDA’s second largest—and thus
As reported last period, in February 2006 an FS firefighter                were unaware of significant control weaknesses. This led to
pled guilty to three counts of setting wildland fires on the               $1.3 of the $10.5 million in maintenance expenses charged
Los Padres National Forest in California. The firefighter                  to fleet credit cards being unsupported. Approximately
intentionally set three fires in July, August, and September               $1.1 million of the unsupported amount was for unusual
2004 that burned 800 acres of forest and cost $2.5 million                 transactions charged without adequate documentation.
in fire-suppression costs. In July 2006, the firefighter was               Such transactions included $88,177 in excess fuel costs,
sentenced to 4 months in prison with 4 months of home                      $947,279 in miscellaneous and unidentifiable expenses,
confinement and 36 months of probation, and ordered to                     $101,393 for maintenance of equipment, and $12,914
pay restitution of nearly $2.5 million. This investigation                 spent on Federal holidays.
was worked jointly with FS.
                                                                              Each NRCS fleet credit card should be associated with
                                                                           a particular vehicle, yet Local Fleet Program Coordinators
                                                                           nationwide kept 1,769 extra credit cards unassociated




                                                                 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half           19
                                                                 Goal 3




with any particular NRCS-owned vehicle—$161,535 was                       the conservation easement purchases, and instead charged
charged to 327 of those extra cards. We found that many                   the landowner an “easement fee” equal to 25 percent of the
of these cards were, in fact, being used to fuel and maintain             easement’s appraised fair market value. We found that the
vehicles not listed in the agency’s inventory. In the 4 States            trust continued similar practices even after NRCS provided
we visited, we identified 62 vehicles that NRCS owned but                 additional direction to the trust and required it to certify
did not list on its inventory.                                            in writing that it had used its own funds to pay for its
                                                                          share of the easement purchase price. The trust continued
   NRCS agreed to (1) conduct management reviews of                       its prior arrangements with the landowners that their
its fleet operations; (2) improve controls over how it uses               continued participation was contingent on donating up to
fleet credit cards by prohibiting the purchase of premium                 50 percent without disclosing this arrangement to NRCS;
and midrange fuels, requiring documentation for credit                    providing certification to NRCS that it contributed its
transactions, and resolving Purchase Card Management                      matching funds from its own cash and not from landowner
System-generated alerts; and (3) reconcile fleet credit cards             donations; providing settlement documents showing that
to the vehicles it owns and cancel credit cards unassociated              it had paid its matching funds, while not disclosing after-
with vehicles. (Audit Report No. 10601-7-Te, Controls                     closing donations from the landowners; and then pursuing
Over Vehicle Maintenance Costs)                                           additional donations from the landowners after the closing.
                                                                          In three of the four easement transactions processed after
NRCS Employees Suspended for Conflict of                                  receiving NRCS direction, the trust was able to recover
Interest                                                                  $202,067 of its required matching funds from the
                                                                          landowners after closing. If the trust had fully disclosed the
In April 2006, two NRCS employees were suspended and                      total donations made by the landowners, NRCS payments
issued letters of warning and reprimand for conflict of                   for the easement transactions would have been significantly
interest/misuse of position while performing their official               reduced.
duties in the NRCS cost-share program. The two were
partners in a company that planted trees. One, as part of                    We also concluded that the appraisals used to obtain
her official duties, was directly involved in the Conservation            NRCS matching funds were unreliable and may have
Reserve Program, which involved planning and partially                    potentially overstated easement values and that there were
funding windbreaks. While on official duty to meet with                   serious deficiencies in all five appraisals provided to NRCS
potential NRCS cost-share clients, the employee provided                  for the FY 2003 easement purchases. We found there were
information about their tree planting company and its                     incorrect methodologies, unsupported and inaccurate
services as an option for prospective clients. The same                   assumptions, unqualified appraisers, incorrect type of
employee later resigned while on suspension. In addition                  reports, ineffective administrative reviews, and nonexistent
to the two employees, an NRCS supervisor was suspended                    technical reviews.
for having knowledge of the former employee’s connection
with the tree planting company.                                              NRCS agreed with our recommendations and
                                                                          concluded that the trust’s actions demonstrated material
Land Trust Circumvents Program Controls                                   noncompliance. NRCS terminated its FY 2004 FRPP
                                                                          cooperative agreements with the trust, and deobligated
Prompted by a request from the NRCS Chief, we audited                     $1,021,438. NRCS is also consulting with legal counsel
a land trust’s operation of the Farm and Ranch Lands                      to consider legal remedies available concerning the trust’s
Protection Program (FRPP) in one State and found serious                  material noncompliance with the appraisal requirements
noncompliance problems in the trust’s operation. The                      for the FY 2003 easement transactions. (Audit Report No.
NRCS State Office had found prior to our audit that the                   10099-5-SF, FRPP in Alabama)
trust failed to pay its required 25-percent share in cash for




  20     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half
                                                                  Goal 3




Mississippi Catfish Producers Benefit From                                 Former Indiana State FSA Employee
Federally Donated Nonfat Dry Milk                                          Sentenced for Illegally Copying Mapping
                                                                           Software
In May 2005, the then-FSA Administrator requested
that OIG review a proposed 2005 sole-source sale of                        In June 2006, after pleading guilty to copyright infringement,
15 million pounds of nonfat dry milk (NDM) to Mississippi                  a former FSA employee was sentenced to 60 months of
State University (MSU) for catfish nutrition research and a                probation with the first 18 months in home detention with
similar 2003 donation of more than 24 million pounds of                    electronic monitoring, and was ordered to pay restitution
NDM to MSU. The Administrator terminated the proposed                      of $7,120 and forfeit all computer-related items used to
2005 sale on his discovery that it had been put forth for his              facilitate the scheme. From October 1, 2003, through
approval in direct contravention of OGC advice. For the                    December 24, 2003, the former geographic information
donation in 2003, 24.7 million pounds of NDM, worth                        systems (GIS) technician illegally copied and sold 41 copies
more than $19 million, was delivered to a private feed mill                of GIS mapping software used by FSA and NRCS. Profit on
and affiliated research facility in Mississippi. We found less             the sale of the software was $7,120, but the retail value of
than 2,000 pounds of the donated NDM was used in actual                    the software pirated was more than $70,000. This was the
research. The remainder was incorporated into catfish feed                 first Federal criminal conviction in Indiana involving the
produced by the feed mill for sale to its private customers.               illegal sale of copyrighted materials over the Internet.
Because of the principal contact’s relationship with both
MSU and the research facility, FSA officials mistakenly                    Research Projects Need Additional Oversight
believed they were donating NDM to the university. The
donation was transacted without an underlying agreement                    We determined that ARS collaborators did not conduct all
subject to approval by OGC or by the FSA Administrator                     of the required site visits to Former Soviet Union (FSU)
and directly violated the CCC Charter Act. The Act                         institutes participating in the Scientific Cooperation
provides that any research financed by CCC be conducted                    Program administered by ARS. In addition, the Science
in collaboration with USDA research agencies.                              and Technology Centers in Moscow and Kiev, which are
                                                                           responsible for providing management oversight of the
    The events related to both the donation and the                        research activities and project expenditures at the project
proposed sale took place without a formal decision-making                  locations in various FSU institutes, did not complete
process for commodity dispositions because CCC docket                      all required on-site project monitoring reviews. We also
procedures no longer provide specific authorities, leaving                 found that ARS was not adequately tracking and reviewing
agencies to implement the docket guidelines as they see                    quarterly and annual technical reports submitted by FSU
fit. We recommended that FSA consult with OGC about                        participants in the projects, and that ARS had not fully
the noted violations and obtain legal counsel for corrective               developed and implemented controls for ensuring the
actions, and develop and codify specific decision-making                   accountability of funds.
policies and procedures for commodity dispositions. FSA
has requested written legal opinions from OGC on several                      ARS agreed to ensure that (1) its collaborators conduct
matters raised in the review and is working expeditiously to               site visits to the FSU institutes annually and that the science
complete all required and necessary actions in line with the               centers consistently conduct on-site monitoring of the FSU
audit recommendations. (Audit Report No. 03099-197-                        projects, (2) all quarterly technical reports are submitted and
KC, Disposition of Nonfat Dry Milk)                                        reviewed with timely feedback provided, and (3) program
                                                                           funds are used appropriately and costs incurred are allowable.
                                                                           (Audit Report No. 02001-2-Hy, ARS Accountability Over
                                                                           the FSU Scientific Cooperation Program)




                                                                 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half            21
                                                               Goal 3




Operation Talon Arrests Take Hard-Core                                  Officer (OCIO) and OIG in the past few years have
                                                                        heightened USDA program management’s awareness
Criminals Off the Streets
                                                                        of the need to plan and implement effective IT security.
                                                                        The National Information Technology Center (NITC),
OIG began Operation Talon in 1997 to locate and
                                                                        located in Kansas City, Missouri, sustained its unqualified
apprehend fugitives, many of them violent offenders,
                                                                        opinion on its general control structure. The Office of the
who are current or former food stamp recipients. As of
                                                                        Chief Financial Officer’s (OCFO) National Finance Center
September 30, 2006, Operation Talon had resulted in
                                                                        (NFC), located in New Orleans, Louisiana, received its first
10,980 arrests of fugitive felons during joint OIG-State and
                                                                        unqualified opinion on the design of its general control
local law enforcement operations. During this reporting
                                                                        structure. While its opinion on the effectiveness of its
period, OIG agents conducted multiple Talon operations in
                                                                        controls remained qualified, this was primarily attributed
California, Oregon, and Washington to make 137 arrests of
                                                                        to the devastation caused by Hurricane Katrina. Although
both males and females, juveniles and adults. OIG worked
                                                                        other USDA agencies accelerated their efforts to comply
with Federal, State and local law enforcement agencies to
                                                                        with Federal information security requirements during
arrest 57 fugitives in California, 29 in Oregon, and 51 in
                                                                        the fiscal year, we continued to find significant weaknesses
Washington for offenses including murder, assault, burglary,
                                                                        that can be attributed in part to a lack of time for OCIO’s
assorted drug charges, robbery, sex offenses, ID theft, and
                                                                        policies and procedures to be effectively implemented.
general larceny. Six individuals involved with violent gang
                                                                        While progress has been made, there is still much to be
activity were arrested in California, one of whom had an
                                                                        accomplished. IT security remains a material weakness
outstanding felony warrant for murder. OIG agents also
                                                                        for USDA, as the Department cannot be assured that its
conducted a Talon operation in Massachusetts and arrested
                                                                        systems and data are adequately secured.
265 fugitives wanted for weapons violations, sex offenses,
robbery, larceny, assorted drug charges, burglary, assault,
                                                                           OCIO noted in its Federal Information Security
and other offenses.
                                                                        Management Act (FISMA) report that it is formulating
                                                                        a process for initiating, reviewing, and updating the
Employee Steals and Resells Over $162,000
                                                                        Department’s policies to improve compliance with Office
in USDA-Owned Software
                                                                        of Management and Budget (OMB) and National Institute
                                                                        of Standards and Technology policies, and Departmental
In April 2006, a former AMS supervisor pled guilty to theft
                                                                        Regulations. OCIO reported that it is performing a gap
of Government property and was later terminated by AMS.
                                                                        analysis to prioritize required policy work and developing a
From November 2000 through December 2003, the former
                                                                        program to review and update existing policies. In addition,
employee purchased and/or directed subordinate employees
                                                                        OCIO has implemented a security review program to
to purchase 294 copies of computer software from various
                                                                        evaluate the accuracy of information provided by the agencies
vendors at the expense of the Government. The software,
                                                                        to improve the effectiveness of their security programs.
valued at $162,859, was re-sold by the former employee
                                                                        However, until these controls are in place, operating, and
for personal gain. In September 2006, the former AMS
                                                                        effectively established, IT management and security remain
supervisor was sentenced to serve 18 months in prison, to
                                                                        a material internal control weakness for the Department.
be followed by 36 months of supervised release, and was
                                                                        (Audit Report No. 50501-7-FM, FY 2006 FISMA)
ordered to pay restitution of $162,859.

                                                                        OIG Investigates Computer Intrusion
IT Security Improvements Have Been Made,
                                                                        Involving 26,000 USDA Employees
But More Are Needed for an Effective
Departmentwide Security Program
                                                                        In response to a request by the Department, OIG’s National
                                                                        Computer Forensic Division determined that two computer
The efforts of USDA’s Office of the Chief Information




  22    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half
                                                                 Goal 3




servers had been compromised multiple times by hackers in                 that PCIMS transactions were valid, properly authorized,
June 2006 but that the database containing personal identity              and accurately processed. However, we did note that
information for 26,000 USDA employees had not been                        PCIMS’ security plan had not been revised since July 2004.
compromised or transferred from USDA computers. OIG                       FSA was aware of this problem and updated the plan on
continues to work with OCIO to ensure that all USDA                       April 28, 2006. This new plan has been submitted to the
networks and employee personal information are secure.                    Associate Chief Information Officer for Cyber Security,
                                                                          and, once implemented, will improve USDA’s control
Stronger Controls Needed To Protect                                       over information entered into PCIMS. (Audit Report No.
Data Transmitted Over USDA Universal                                      50601-13-Te, Application Controls Over PCIMS)
Telecommunications Network (UTN)
                                                                          NFC Controls Not Operating Effectively
We reviewed the UTN maintained by USDA’s OCIO
with specific emphasis on network management and                          OCFO/NFC received its first unqualified opinion on the
security. The UTN is intended to function as a new shared                 design of its general control structure. However, NFC also
corporate data network backbone for USDA to provide its                   received a qualified opinion on its operational effectiveness
customers with secure and cost-effective telecommunication                because controls had not operated effectively to ensure
capabilities and network support services. We found that                  that certain entity-wide security program planning and
OCIO implemented UTN without adequate security                            management, access, application change, system software,
controls because it had not conducted the required system                 and service continuity control objectives were consistently
testing, security control testing, and certification and                  achieved from October 1, 2005, through June 30, 2006.
accreditation. OCIO agreed with and is implementing                       This occurred mainly because of disruptions to normal
our recommendations. (Audit Report No. 88501-6-FM,                        operating procedures while NFC recovered its operations
Management and Security Over UTN)                                         and reconstituted its workforce in New Orleans, Louisiana,
                                                                          after Hurricane Katrina. During the course of the audit,
OCIO/NITC Controls Are Suitably Designed                                  we also identified certain controls that were not adequately
                                                                          designed. NFC updated its procedures during our review to
Our review of the OCIO/NITC internal control structure,                   address these issues. (Audit Report No. 11401-24-FM, FY
as of June 30, 2006, disclosed that the documentation of                  2006 NFC General Controls)
control objectives and techniques provided by OCIO/
NITC presented fairly, in all material aspects, the relevant              Retirement, Health, and Life Insurance
aspects of OCIO/NITC’s control environment taken as a                     Withholdings/Contributions Were Reasonable
whole. Also, in our opinion, the policies and procedures are
suitably designed to provide reasonable assurance that the                As required annually by OMB, we assisted the Office
control objectives would be achieved and operate effectively.             of Personnel Management (OPM) in assessing the
(Audit Report No. 88501-9-FM, OCIO/NITC General                           reasonableness of retirement, health, and life insurance
Controls Review – FY 2006)                                                withholdings/contributions and employee data submitted
                                                                          by OCFO/NFC. We found that no differences exceeded
Application Controls for Processed                                        the allowable OPM thresholds. (Audit Report No. 11401-
Commodities Inventory Management System                                   25-FM, Agreed-Upon Procedures: Retirement, Health
(PCIMS) Were Adequate                                                     Benefits, and Life Insurance Withholdings/Contributions
                                                                          and Supplemental Semiannual Headcount Report
AMS, FNS, and FSA use PCIMS to purchase, track, and                       Submitted to OPM)
distribute approximately $2.5 billion of domestic and
foreign food assistance annually. We found that USDA
had implemented adequate application controls to ensure




                                                                USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half          23
                                                                Goal 3




GOVERNMENT WIDE ACTIVITIES – GOAL 3

Review of Legislation, Regulations, Directives, and Memoranda


n    The American Institute of Certified Public Accountants                  creditworthiness assessment of importers/foreign
     (AICPA) reviewed concerns regarding governance and                      buyers, methods of payments, analyses of exporters,
     proposed a new standard. OIG auditors commented                         and the claims and recovery process. CCC and FAS
     on the AICPA Proposed Statement of Auditing                             are still considering appropriate revisions to SCGP.
     Standards and agreed that establishing a requirement
     for the auditor to communicate with those charged
                                                                         Participation on Committees, Working Groups,
     with governing certain significant matters related to
                                                                         and Task Forces
     the audit would be an effective way to ensure open and
     direct communications. OIG recommended adoption
                                                                         n   USDA OIG is participating in a Governmentwide
     of the new standard.
                                                                             effort coordinated by DHS OIG to monitor and assess
                                                                             agency relief efforts related to the recent hurricanes.
n    The PCIE solicited comments on its Federal Employees
                                                                             During our audits of FS and RD, we identified several
     Compensation Act protocol. OIG auditors assessed
                                                                             issues to improve accountability over future disaster
     the protocol and its impact on OIG operations, and
                                                                             relief funding and made DHS OIG aware of them.
     recommended its adoption.
                                                                             These included the use of pre-established agreements
                                                                             with vendors for critical goods and services to ensure
n    OIG auditors commented on proposed revisions by the                     prompt and economical acquisitions (such as the
     Department of the Treasury’s Financial Management                       FS’ Emergency Equipment Rental Agreements),
     Service to the Treasury Financial Manual, Part 2,                       coordination between supporting agencies to determine
     Chapter 4700, “Agency Reporting Requirements for                        needed supporting documentation for expenses, the
     the Financial Report of the U.S. Government.” OIG                       need for more specific guidance for accountable items,
     provided comments pertaining to administrative and                      and the need to coordinate information on housing
     timing concerns for the new reporting requirements.                     assistance in order to avoid duplicating benefits.

n    OIG participated in the revision of “Audit                          n   OMB Memorandum M-06-16, “Protection of
     Requirements for Federal Financial Statements”                          Sensitive Agency Information,” requires departments
     (OMB Bulletin No. 06-03, formerly 01-02) as well                        and agencies to properly safeguard their information
     as OMB Circular No. A-136, “Financial Reporting                         assets while using IT. The PCIE/Executive Council
     Requirements.”                                                          on Integrity and Efficiency’s Federal Audit Executive
                                                                             Council (FAEC) IT Committee developed a data
n    CCC and FAS published a notice in the Federal Register                  collection instrument (DCI) to capture the results of
     soliciting public comments on USDA’s Supplier Credit                    the IG community’s assessment of agency efforts to
     Guarantee Program (SCGP), as they consider revising                     protect sensitive information. OIG auditors completed
     SCGP to address program vulnerabilities manifested                      the DCI and provided requested results to FAEC for
     by past potentially fraudulent activities and to make                   inclusion in a PCIE report to OMB.
     SCGP more consistent with World Trade Organization
     requirements. Based upon our audit and investigative                n   OIG responded to selected Federal Accounting
     experiences with SCGP, OIG provided comments to                         Standards Advisory Board inquiries. Specifically,
     CCC and FAS addressing program vulnerabilities and                      OIG auditors responded to a questionnaire relating
     suggesting processes that would reduce incidences                       to implementation issues regarding Statement of
     of fraud and abuse. OIG comments dealt with                             Federal Financial Accounting Standards (SFFAS) No.
     SCGP’s origination fee rates, levels of guarantee                       30, “Inter-Entity Cost Implementation,” amending
     coverage, guarantees during periods of price volatility,                SFFAS 4, “Managerial Cost Accounting Standards

    24   USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half
                                                                  Goal 3




    and Concepts.” In addition, OIG auditors responded
    to the survey pertaining to the Proposed Statement                     n   OIG staff presented an update on April 12, 2006, to
    of Federal Financial Accounting Concepts, Exposure                         the PCIE’s Misconduct in Research Working Group
    Draft, “Definition and Recognition of Elements of                          regarding the Department’s implementation of Federal
    Accrual Basis Financial Statements.”                                       guidelines on research misconduct. A Secretary’s
                                                                               Memorandum, issued on July 11, 2006, was prepared
n   During the prior audit of the Wetlands Reserve                             in response to Audit Report No. 50099-11-Hy,
    Program and our ongoing review of crop bases on                            Implementation of Federal Research Misconduct
    lands with conservation easements, OIG auditors                            Policy in USDA. The working group members meet
    noted an apparent breakdown of communication and                           periodically to exchange information on the status of
    coordination between NRCS and FSA to ensure such                           Governmentwide research misconduct policies and
    bases are correctly adjusted (or retired) for farm program                 procedures in accordance with guidelines established
    payment purposes. If bases are not correctly adjusted,                     by the Office of Science and Technology Policy
    then the Department could doubly compensate                                (OSTP).
    producers/landowners through conservation easement
    payments and also farm program payments for crop                       n   On August 10, 2006, OIG staff participated in an
    bases. At FSA’s request, OIG met with FSA and NRCS                         interagency IG meeting regarding the development of
    program officials to draft integrated corrective actions                   voluntary Governmentwide compliance guidance for
    to address duplicate payments. The parties agreed                          recipients of Federal research funding. The project is
    to establish a working group from both agencies to                         being promoted by OSTP, with its Research Business
    develop procedures and forms that both agencies                            Models Subcommittee of the National Science and
    could use. OIG provided feedback on what the draft                         Technology Council’s Committee on Science leading
    documents should include and agreed to comment on                          the effort. The IG community represented at the
    the working group’s draft documents.                                       meeting agreed it would be beneficial to have uniform,
                                                                               Governmentwide compliance guidance and provided
n   In response to a request from the Under Secretary for                      feedback to the OSTP representative.
    RD for a comprehensive examination of the internal
    review process in RD, OIG participated in a task
    force to contribute our experience and insight into
    the re-engineering process. The task force focused on
    streamlining and making more efficient the myriad
    of different types of RD internal control reviews,
    while meeting the requirements for internal controls
    in revised OMB Circular A-123, “Management
    Accountability and Control.” OIG attended meetings,
    suggested ways to restructure the RD internal control
    process, and commented on the draft briefing paper
    for the Under Secretary. Our recommendations
    included input on the environment necessary for the
    restructured process to be effective (i.e., assumptions),
    specific actions and descriptions of how to develop
    a consolidated management control review that
    would incorporate the requirements of A-123, and
    benchmarks and timeframes for implementation. The
    final briefing paper was scheduled to be presented to
    the Under Secretary by October 31, 2006.




                                                                 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half       25
                                                                  Goal 3




ONGOING AND PLANNED REVIEWS FOR GOAL 3

Topics that will be covered in ongoing or planned reviews under Goal 3 include:

Hurricane Relief Initiatives:                                              n   minimum security requirements in USDA
                                                                               information systems (OCIO),
n     barge movement and transportation                                    n   agreed-upon procedures: retirement, health benefits,
      differential agreements (CCC),                                           and life insurance withholdings/contribution
n     emergency and alternative grain storage (FSA and CCC),                   and supplemental headcount report submitted
                                                                               to OPM FY’s 2006 and 2007 (OCFO),
n     Emergency Watershed Protection Program, Dead
      Animal Debris Disposal Project, and Emergency                        n   controls over e-payments at OCFO/NFC
      Conservation Program (NRCS and FSA),                                 n   FS’ large-fire suppression costs,
n     Section 32 disaster programs including the Feed,                     n   Stewardship Contraction Program (FS),
      Hurricane (crop), Livestock, and Tree Indemnity
                                                                           n   oversight and control of FS activities,
      Programs and aquaculture grants (FSA and CCC), and
                                                                           n   replacement plan for firefighting aerial resources (FS),
n     Emergency Forestry Conservation Reserve Program (FSA).
                                                                           n   Management of Forest Legacy Program (FS),

                                                                           n   controls over recovery of advance countercyclical
                                                                               payments that exceed the final payments (FSA),

                                                                           n   controls over producers disqualified
Other Goal 3 Work:                                                             from farm programs (FSA),

n     review of USDA employee civil rights                                 n   crop bases on conservation easements
      complaints (Office of Civil Rights),                                     – State of California (NRCS and FSA),

n     annual audits of the Department and standalone agencies’             n   crop bases on conservation easements
      Financial Statements for FY’s 2006 and 2007 (OCFO),                      – nationwide (NRCS and FSA),

n     improper payments continued review of risk assessment                n   Chesapeake Bay Program – joint review with
      process and monitoring the progress of corrective actions                the U.S. Environmental Protection Agency
      for USDA agencies (NRCS, FS, FSA, RHS, and RMA),                         (NRCS, FS, FSA, CSREES, and ARS),

n     FY’s 2006 and 2007 NFC IT Controls,                                  n   effective use of satellite imagery by
                                                                               USDA agencies (FSA and NRCS),
n     FISMA – FY 2006 and 2007 (OCIO)
                                                                           n   Wetland Reserve Program restoration compliance (NRCS),
n     FY 2007 Working Capital Fund
      financial statements (OCFO),                                         n   contract administration at NRCS,

n     monitoring of USDA implementation of                                 n   RMA contracting for services under the
      Cost Accounting System (OCFO),                                           Agricultural Risk Protection Act of 2000,

n     e-Gov security (OCIO),                                               n   financial reviews of RMA’s reinsured companies,

n     ARS contract management over                                         n   RMA Compliance Office activities,
      technology transfer agreements,                                      n   Tribal Land Grant Institutions (CSREES),
n     IT services general controls – FY 2007 (OCIO),                       n   National Research Initiative Competitive Grants (CSREES),
n     management and security over USDA
      wireless connections (OCIO),




 26      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half
                                                             Goal 3




 ONGOING AND PLANNED REVIEWS FOR GOAL 3



  n    international trade policy and procedures (FAS),

  n    Export Credit Guarantee Program (FAS),

  n    Trade Adjustment Assistance for Farmers (FAS), and

  n    ARS research agreement monitoring.




The findings and recommendations from these efforts will be covered in future semiannual reports as the relevant audits and
investigations are completed.




                                                            USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half     27
Gauging the Impact of the OIG
PROGRESS AGAINST THE OIG STRATEGIC PLAN

The first way we gauged our impact was by measuring the             For audits we show
extent to which our work focused on the key issues under            n     Reports issued
our three strategic goals:
                                                                    n     Management decisions made (number
                                                                          of reports and recommendations)
n    Support USDA in the enhancement of safety and
     security measures to protect USDA and agricultural             n     Total dollar impact of management-decided reports
     resources and in related public health concerns.                     (questioned costs and funds to be put to better use)

n    Reduce program vulnerabilities and enhance                     n     Program improvement recommendations
     integrity in the delivery of benefits to individuals.
                                                                    n     Audits without management decision
n    Increase the efficiency and effectiveness with which
     USDA manages and employs public assets and resources,
                                                                    For investigations we show
     including physical and information resources.
                                                                    n     Indictments

IMPACT OF OIG AUDIT AND INVESTIGATIVE WORK                          n     Convictions
ON DEPARTMENT PROGRAMS                                              n     Arrests
A second way we gauge our impact is by tracking the
                                                                    n     Total dollar impact (recoveries, restitutions, fines)
outcomes of our audits and investigations. Many of these
measures are codified in the Inspector General Act of               n     Administrative sanctions
1978, as amended. The following pages present a statistical         n     OIG Hotline complaints
overview of the OIG’s accomplishments this period.




         PERFORMANCE RESULTS TOTALS UNDER OUR STRATEGIC GOALS


                                                                FY 2005 FY 2006
 Performance Measures                                           Baseline   Target       FY 2006 2nd Half Actual     FY 2006 Full Year Actual

 Audit/Investigative resources dedicated to critical/high-
                                                                   81%         90%                         91.8%                      92.6%
 impact work


 Audit recommendations resulting in management decision
                                                                   78%         85%                         90.2%                      89.5%
 within 1 year


 Investigative cases where criminal, civil, or administrative
                                                                  61.6%        65%                         78.3%                      77.4%
 action is taken in response to OIG reports




    28   USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half
                                                        Impact of the OIG




RECOGNITION OF OIG EMPLOYEES BY THE DEPARTMENT AND IG COMMUNITY

Secretary’s Annual Honors Awards                                      PCIE Awards

USDA Human Capital Team                                               FS Firefighting Contract Crews Audit Team

Operation Salsa Joint Task Force                                      Broadband Loan and Grant Programs Audit Team

FS Firefighting Contract Crew Audit Team                              Competitive Marketing Conditions for Livestock and Meat
                                                                      Audit Team
2006 Employee Recognition and Remembrance Award
                                                                      Food Safety and Inspection Initiatives
Animal Welfare Act Investigation and Prosecution Team
                                                                      Puerto Rico Special Wage Incentive Program Audit Team
BSE Audit and Investigation Team
                                                                      Genetically Engineered Organism Release Permit Team

                                                                      APHIS Animal Care Audit Team

                                                                      Helping USDA Ensure the Quality of Meat Imported From
                                                                      Canada Audit Team

                                                                      Operation Salsa Joint Task Force

                                                                      BSE Surveillance Audit Team

                                                                      Employee Relations Enhancement Team

                                                                      Research Integrity and Safety Audit Teams

                                                                      Interagency Export Controls Working Group

                                                                      Ohio Organized Crime Investigations Commission
                                                                      Taskforce 02-3

                                                                      Guymon Livestock Auction Investigation and Prosecution
                                                                      Team

                                                                      U.S. Mexico Foundation Audit Resolution Team




                                                           USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half      29
                                                                                                     Impact of the OIG




                                                                         SUMMARY OF AUDIT ACTIVITIES
                                                                                          APRIL-SEPTEMBER 2006

              Reports Issued                                                                                                                                                                            41
              Audits Performed by OIG                                                                                                                                                                    35
              Evaluations Performed by OIG                                                                                                                                                                1
              Audits Performed Under the Single Audit Act                                                                                                                                                 0
              Audits Performed by Others                                                                                                                                                                  5
              Management Decisions Made
              Number of Reports                                                                                                                                                                          33
              Number of Recommendations                                                                                                                                                                 214

              Total Dollar Impact (Millions) of Management-Decided Reports                                                                                                                            $35.6
              Questioned/Unsupported Costs                                                                                                                              $31.2   ab

              Recommended for Recovery                                                                                                                  $29.7
              Not Recommended for Recovery                                                                                                               $1.5
              Funds To Be Put to Better Use                                                                                                                               $4.4
     a
        T hese were the amounts the auditees agreed to at the time of management decision.
     b
          The recoveries realized could change as the auditees implement the agreed-upon corrective action plan and seek recovery of amounts recorded as debts due the Department.




                                                               SUMMARY OF INVESTIGATIVE ACTIVITIES
                                                                                          APRIL–SEPTEMBER 2006

              Reports Issued                                                                                                                                                                            127

              Cases Opened                                                                                                                                                                              213

              Cases Closed                                                                                                                                                                              165

              Cases Referred for Prosecution                                                                                                                                                              82

              Impact of Investigations
              Indictments                                                                                                                                                                               217

              Convictions                                                                                                                                                                               181a

              Searches                                                                                                                                                                                    65

              Arrests                                                                                                                                                                                   632

              Total Dollar Impact (Millions)                                                                                                                                                          $78.5
              Recoveries/Collections                                                                                                                 $11.8   b



              Restitutions                                                                                                                           $57.7c

              Fines                                                                                                                                    $1.6d

              Claims Established                                                                                                                       $6.2e

              Cost Avoidance                                                                                                                           $1.0f

              Administrative Penalties                                                                                                                 $0.2g

              Administrative Sanctions                                                                                                                                                                150
              Employees                                                                                                                                                                                   22

              Businesses/Persons                                                                                                                                                                        128
     a
           Includes convictions and pretrial diversions. Also, the period of time to obtain court action on an indictment varies widely; therefore, the 181 convictions do not necessarily relate to the 217 indictments.
     b
        Includes money received by USDA or other Government agencies as a result of OIG investigations.
     c
        Restitutions are court-ordered repayments of money lost through a crime or program abuse.
     d
        Fines are court-ordered penalties.
     e
          Claims established are agency demands for repayment of USDA benefits.
     f
         Consists of loans or benefits not granted as the result of an OIG investigation.
     g
          Includes monetary fines or penalties authorized by law and imposed through an administrative process as a result of OIG findings.


30        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half
                                              Impact of the OIG




                            FULL FY 2006 RESULTS IN KEY CATEGORIES
                                    OCTOBER 2005–SEPTEMBER 2006

SUMMARY OF AUDIT ACTIVITIES
Reports Issued                                                                                        88

Management Decisions Made
Number of Reports                                                                                     61

Number of Recommendations                                                                         428

Management Decisions Made
Total Dollar Impact (Millions) Of Unmanagement-Decided REports                                   $221.3
Questioned/Unsupported Costs                                                                  $57.1

Funds To Be Put To Better Use                                                                $164.2



SUMMARY OF Investigative ACTIVITIES
Reports Issued                                                                                        251

Impact Of Investigations
Indictments                                                                                           350

Convictions                                                                                           298

Arrests                                                                                               882

Total Dollar Impact (Millions)                                                                   $118.6
Administrative Sanctions                                                                              236




                                                 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half    31
                                                  Impact of the OIG




                                   INVENTORY OF AUDIT REPORTS
                                   WITH RECOMMENDATIONS THAT
                                   FUNDS BE PUT TO BETTER USE
                                  FROM APRIL 1 THROUGH SEPTEMBER 30, 2006


                                                                            NUMBER   DOLLAR VALUE


            FOR WHICH NO MANAGEMENT DECISION HAD BEEN MADE BY
A.                                                                            9       $326,808,443
            April 1, 2006




B.          WHICH WERE ISSUED DURING THE REPORTING PERIOD                     4         $1,261,713




            TOTALS                                                            13      $328,070,156




            FOR WHICH A MANAGEMENT DECISION WAS MADE DURING THE
C.                                                                            4
            REPORTING PERIOD




            (1) DOLLAR VALUE OF DISALLOWED COSTS                                       $4,374,093




            (2) DOLLAR VALUE OF COSTS NOT DISALLOWED                                          $0




            FOR WHICH NO MANAGEMENT DECISION HAS BEEN MADE BY THE END OF
D.                                                                            9       $323,696,063
            THE REPORTING PERIOD




            REPORTS FOR WHICH NO MANAGEMENT DECISION WAS MADE WITHIN 6
                                                                              7       $323,455,788
            MONTHS OF ISSUANCE 




 32   USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half
                                                                          Impact of the OIG




                                                            INVENTORY OF AUDIT REPORTS WITH
                                                              QUESTIONED COSTS AND LOANS
                                                             FROM APRIL 1 THROUGH SEPTEMBER 30, 2006



                                                                                                              DOLLAR VALUES


                                                                                                            QUESTIONED        UNSUPPORTEDa
                                                                                                            COSTS AND          COSTS AND
                                                                                                NUMBER        LOANS              LOANS

A.
                         FOR WHICH NO MANAGEMENT DECISION HAD BEEN MADE BY                         22        $106,385,047        $48,990,144
                         APRIL 1, 2006


B.                       WHICH WERE ISSUED DURING THIS REPORTING PERIOD                            7           $34,248,821          $240,282



TOTALS                                                                                             29        $140,633,868        $49,230,426



C.
                         FOR WHICH A MANAGEMENT DECISION WAS MADE DURING                           8
                         THIS REPORTING PERIOD


                         (1) DOLLAR VALUE OF DISALLOWED COSTS


                         RECOMMENDED FOR RECOVERY                                                              $29,745,078



                         NOT RECOMMENDED FOR RECOVERY                                                           $1,460,826          $174,763



                         (2) DOLLAR VALUE OF COSTS NOT DISALLOWED                                                     $2



D.
                         FOR WHICH NO MANAGEMENT DECISION HAS BEEN MADE BY                         21        $109,749,010        $49,055,663
                         THE END OF THIS REPORTING PERIOD


                         REPORTS FOR WHICH NO MANAGEMENT DECISION WAS                              17        $105,147,512        $48,815,381
                         MADE WITHIN 6 MONTHS OF ISSUANCE

a
    Unsupported values are included in questioned values.




                                                                             USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half    33
                                                               Impact of the OIG




     PROGRAM IMPROVEMENT RECOMMENDATIONS                                           n   FNS agreed to require (1) the regional offices to revise
                                                                                       their management evaluations of State EBT operations
        A significant number of our audit recommendations                              to include tests of whether the States conducted proper
                                                                                       system access reviews; (2) States to implement a formal
     carry no monetary value per se, but their impact can be
                                                                                       process for use during EBT POS equipment replacement
     immeasurable in terms of safety, security, and public
                                                                                       that would prevent retailers from fraudulently obtaining
     health. They can also contribute considerably toward                              equipment; and (3) States to consider requests for
     economy, efficiency, and effectiveness in USDA’s programs                         POS equipment specifications to prevent the illegal
     and operations. During this reporting period, we issued                           removal and unauthorized use of the devices.
     151 program improvement recommendations, and
                                                                                   n   RHS’ CSC agreed to conduct a cost-benefit analysis
     management agreed to implement a total of 186 program
                                                                                       and use a random sample to determine the overall
     improvement recommendations that were issued this
                                                                                       error rate in its universe of payment subsidies.
     period or earlier. During the full fiscal year, we issued
     425 program improvement recommendations, and                                  n   ARS agreed to ensure that (1) its collaborators
     management agreed to implement a total of 384 program                             conduct site visits to the FSU institutes annually and
     improvement recommendations. Examples of the program                              that the science centers consistently conduct on-
                                                                                       site monitoring of the FSU projects, (2) all quarterly
     improvement recommendations issued this period include
                                                                                       technical reports are submitted and reviewed with
     the following. (See the main text of this report for a summary
                                                                                       timely feedback provided, and (3) program funds are
     of the audits that prompted these program improvement                             used appropriately and costs incurred are allowable.
     recommendations.)

     n     APHIS agreed to provide additional guidance on preparing
           and responding to HPAI or notifiable AI outbreaks in live
           bird markets or other “off farm” environments; clarify
           actions that employees should take in obtaining and
           administering necessary vaccines and anti-virals in
           the event that a culling operation for HPAI occurs; and
           finalize interagency coordination on the process and
           procedures for notifying owners of susceptible animals of
           the current infectivity risks, and the necessary protective
           actions they should take when an outbreak of AI occurs.

     n     FS agreed to assign a high-level official at the
           Washington office to be responsible for the overall
           safety and security of the FS’ explosives/munitions
           program and establish a realistic timeframe for
           implementing all remaining security recommendations.

     n     FSIS agreed to (1) strengthen its procedures to ensure
           that all establishments subject to Salmonella testing
           are identified and included in the testing database,
           (2) develop a risk assessment to determine which
           establishments need to be tested for Salmonella, and (3)
           obtain scientific advice to evaluate whether its policy of not
           testing certain raw ground beef products for
           E. coli O157:H7 contamination should be continued.




34       USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half
                                                                              Impact of the OIG




n                                                                                           n
                                            SUMMARY OF AUDIT REPORTS RELEASED FROM
                                               April 1 THROUGH SEPTEMBER 30, 2006
                        DURING THE 6-MONTH PERIOD FROM APRIL 1 THROUGH SEPTEMBER 30, 2006, THE OFFICE
                        OF INSPECTOR GENERAL ISSUED 41 AUDIT REPORTS, INCLUDING 5 PERFORMED BY OTHERS.
                                                           THE FOLLOWING IS A SUMMARY OF THOSE AUDITS BY AGENCY:


                                                                                                         QUESTIONED      UNSUPPORTEDa   FUNDS BE PUT
                                                                                               AUDITS     COSTS AND         COSTS AND      TO BETTER
AGENCY                                                                                      RELEASED          LOANS             LOANS           USE
AGRICULTURAL RESEARCH SERVICE                                                                       2

ANIMAL AND PLANT HEALTH INSPECTION SERVICE                                                          1

OFFICE OF THE CHIEF INFORMATION OFFICER                                                             2

DELTA REGIONAL AUTHORITY                                                                            1        $915,437        $220,000

FARM SERVICE AGENCY                                                                                 3      $22,528,517

FOOD AND NUTRITION SERVICE                                                                          7

FOOD SAFETY AND INSPECTION SERVICE                                                                  2       $1,498,783                       $100,000

FOREST SERVICE                                                                                      4

MULTIAGENCY                                                                                         5

NATURAL RESOURCES CONSERVATION SERVICE                                                              4       $1,285,802                     $1,021,438

OFFICE OF THE CHIEF FINANCIAL OFFICER                                                               2

RISK MANAGEMENT AGENCY                                                                              1

RURAL BUSINESS-COOPERATIVE SERVICE (RBS)                                                            1

RURAL DEVELOPMENT                                                                                   1       $8,000,000

RURAL HOUSING SERVICE                                                                               5         $20,282         $20,282        $140,275


TOTALS                                                                                            41    $34,248,821         $240,282     $1,261,713

TOTAL COMPLETED:
      SINGLE AGENCY AUDIT                                                                          35
      MULTIAGENCY AUDIT                                                                             5
      SINGLE AGENCY EVALUATION                                                                      1
      MULTIAGENCY EVALUATION                                                                        0
      TOTAL RELEASED NATIONWIDE                                                                    41
      TOTAL COMPLETED UNDER CONTRACTb                                                               5
      TOTAL SINGLE AUDIT ISSUED                       c
                                                                                                    0
a
    Unsupported values are included in questioned values
b
    Indicates audits performed by others
c
    Indicates audits completed as Single Audit
                                                                                                                                              -Continued




                                                                                 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half           35
                                                                   Impact of the OIG




n                                                                               n
                   AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                             FROM APRIL 1 THROUGH SEPTEMBER 30, 2006

                                                                                       QUESTIONED      UNSUPPORTED
                        RELEASE                                                        COSTS AND        COSTS AND     FUNDS BE PUT
    AUDIT NUMBER          DATE                      TITLE                                LOANS            LOANS       TO BETTER USE


Agricultural Research Service
                                       ARS Accountability Over
                                       Newly Independent States
020010002HY           2006/08/01
                                       Scientific Cooperation
                                       Programs
                                       DCAA Audit of International
020170005HQ           2006/06/27       Science and Technology Center
                                       Funded by ARS
Total: Agricultural Research Service                                            2



Animal and Plant Health Inspection Service
                                       Oversight of Avian Flu
330990011HY           2006/06/12
                                       Outbreak
Total: Animal and Plant Health Inspection Service                               1



Office of the Chief Information Officer
                                       Management and Security
885010006FM           2006/08/07       Over the Universal
                                       Telecommunication Network
                                       National Information
                                       Technology Center – General
885010009FM           2006/09/19
                                       Controls Review Fiscal Year
                                       2006
Total: Office of the Chief Information Officer                                  2



Delta Regional Authority
                                       Controls Over Issuance of
620990001TE           2006/08/11       Appropriated Funds by the                           $915,437        $220,000
                                       Delta Regional Authority
Total: Delta Regional Authority                                                 1          $915,437        $220,000



Farm Service Agency
                                       Direct and Counter-Cyclical
030990196KC           2006/04/24
                                       Program
                                       FSA Violation on the
030990197KC           2006/09/20       Disposition of Non-Fat Dry                        $20,361,521
                                       Milk
                                       Nonrecourse Marketing
036010047TE           2006/09/13                                                          $2,166,996
                                       Assistance Farm-Stored Loans
Total: Farm Service Agency                                                      3        $22,528,517




    36   USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half
                                                                  Impact of the OIG




n                                                                               n
                   AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                            FROM APRIL 1 THROUGH SEPTEMBER 30, 2006

                                                                                       QUESTIONED       UNSUPPORTED
                         RELEASE                                                       COSTS AND         COSTS AND    FUNDS BE PUT
    AUDIT NUMBER           DATE                    TITLE                                 LOANS             LOANS      TO BETTER USE


Food and Nutrition Service
                                      DCAA Audit of Mathematica
270170002HQ             2006/09/26    Policy Research Inc.’s FY 2004
                                      Incurred Cost
                                      DCAA Audit of Digital
270170003HQ             2006/04/06    Access Corporation’s FY 2003
                                      Incurred Cost
270990032SF             2006/07/28    Alert Watchlist
                                      Monitoring FNS Hurricane
270990061AT             2006/08/30
                                      Relief Effort
                                      Continued Monitoring of EBT
270990066HY             2006/09/28
                                      Operations
                                      FNS Child Nutrition Labeling
276010013HY             2006/09/28
                                      Program
                                      CACFP Supper Program in
276010035CH             2006/07/14
                                      Schools
Total: Food and Nutrition Service                                              7



Food Safety and Inspection Service
                                      FSIS State Operated Inspection
240050001AT             2006/09/19                                                         $1,498,783                       $100,000
                                      Programs
                                      Review of Pathogen Reduction
246010007CH             2006/09/28    Enforcement Program
                                      Sampling Procedures
Total: Food Safety and Inspection Service                                      2           $1,498,783                       $100,000



Forest Service
                                      DCAA Audit of Cowboy
                                      Catering Termination for
080170007HQ             2006/09/26
                                      Convenience Settlement
                                      Proposal – Forest Service
                                      Follow-up on
                                      Recommendations Made on
086010002HY             2006/06/14
                                      Forest Service’s Maintenance
                                      Backlog
                                      Implementation of the Healthy
086010006AT             2006/09/06
                                      Forests Initiative
                                      Follow-up on FS Security over
086010045SF             2006/07/03
                                      Explosives
Total: Forest Service                                                          4




                                                                      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half    37
                                                                   Impact of the OIG




n                                                                               n
                   AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                            FROM APRIL 1 THROUGH SEPTEMBER 30, 2006

                                                                                       QUESTIONED      UNSUPPORTED
                       RELEASE                                                         COSTS AND        COSTS AND    FUNDS BE PUT
    AUDIT NUMBER         DATE                    TITLE                                   LOANS            LOANS      TO BETTER USE


Multi-Agency
                                     DCAA Audit of IBM’s Federal
                                     Cost Accounting Standard 404
500170001HQ           2006/05/31
                                     – Capitalization of Tangible
                                     Assets
                                     Monitoring FSA and RMA
                                     Implementation of Emergency
500990045AT           2006/04/01
                                     Relief Programs and
                                     Procedures for 2004
                                     Fiscal Year 2006 Federal
505010007FM           2006/09/29     Information Security
                                     Management Act Report
                                     Effectiveness of Controls
506010009CH           2006/09/28     over the Bovine Tuberculosis
                                     Eradication Program
                                     Application Controls over
506010013TE           2006/07/27     the Processed Commodity
                                     Inventory Management System
Total: Multi-Agency                                                             5



Natural Resources Conservation Service
                                     Farm and Ranch Lands
100990005SF           2006/09/05     Protection Program in                                                                $1,201,438
                                     Alabama
                                     NRCS Application Controls
105010005FM           2006/07/24
                                     – Program Contracts System
                                     Improper Payments
                                     – Monitoring the Progress of
106010003CH           2006/06/12
                                     Corrective Actions for High
                                     Risk Programs in NRCS
                                     NRCS Controls Over Vehicle
106010007TE           2006/06/07                                                          $1,285,802
                                     Maintenance Costs
Total: Natural Resources Conservation Service                                   4         $1,285,802                      $1,021,438



Office of the Chief Financial Officer
                                     Fiscal Year 2006 – National
114010024FM           2006/09/28     Finance Center General
                                     Controls




    38   USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half
                                                                  Impact of the OIG




n                                                                               n
                   AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                               FROM APRIL 1 THROUGH SEPTEMBER 30, 2006

                                                                                       QUESTIONED       UNSUPPORTED
                         RELEASE                                                       COSTS AND         COSTS AND     FUNDS BE PUT
    AUDIT NUMBER           DATE                    TITLE                                 LOANS             LOANS       TO BETTER USE
                                       Agreed-Upon Procedures:
                                       Retirement, Health
                                       Benefits, and Life Insurance
                                       Withholdings/Contributions
114010025FM           2006/09/22
                                       and Supplemental Semiannual
                                       Headcount Report Submitted
                                       to the Office of Personnel
                                       Management FY 2006
Total: Office of the Chief Financial Officer                                   2



Risk Management Agency
                                       RMA Financial Management
058010003KC           2006/04/25       Controls Over Reinsurance
                                       Companies
Total: Risk Management Agency                                                  1



Rural Business-Cooperative Service
                                       RBS Value-Added Agricultural
346010004KC           2006/07/08       Product Market Development
                                       Grants
Total: Rural Business-Cooperative Service                                      1



Rural Development
                                       Rural Economic Development
                                       Loan and Grant Program
850010001HY           2006/04/05                                                           $8,000,000
                                       – Review of Shenandoah Valley
                                       Electric Cooperative’s Grant
Total: Rural Development                                                       1           $8,000,000



Rural Housing Service
                                       Single-Family Housing,
040990341AT           2006/08/14       Borrower Income Verification
                                       Procedures
                                       Guaranteed Rural Housing
046010003AT           2006/09/29
                                       Loan Program Followup
046010004AT           2006/06/22       Community Facilities Program
                                       RRH Loan Prepayment and
046010012CH           2006/04/14
                                       Restrictive Use Agreements
                                       Controls Over Multi-Family
046010013CH           2006/09/28       Housing Funds Provided for                            $20,282         $20,282         $140,275
                                       Hurricane Relief Efforts
Total: Rural Housing Service                                                   5             $20,282         $20,282         $140,275




                                                                      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half     39
                                                     Impact of the OIG




n                                                                 n
                   AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                     FROM APRIL 1 THROUGH SEPTEMBER 30, 2006

                                                                         QUESTIONED    UNSUPPORTED
                     RELEASE                                             COSTS AND      COSTS AND    FUNDS BE PUT
    AUDIT NUMBER       DATE               TITLE                            LOANS          LOANS      TO BETTER USE


Grand Total:                                                     41      $34,248,821     $240,282    $1,261,713




    40   USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half
                                                                    Impact of the OIG




n                                                                                 n
                                      AUDITS WITHOUT MANAGEMENT DECISION
The Inspector General Act has a number of reporting requirements, among them tracking audits without management decision. The following
audits did not have management decisions made within the 6-month limit imposed by Congress. Narratives for new entries follow this table.
An asterisk (*) indicates that an audit is pending judicial, legal, or investigative proceedings that must be completed before the agency can act to
complete management decisions.
                                                                                                         Total Value at Issuance    Amount With No Mgmt.
      Agency           Date Issued                             Title of Report                                       (in dollars)     Decision (in dollars)



NEW SINCE LAST REPORTING PERIOD
                                        1. Implementation of the Listed Agent or Toxin
APHIS                01/17/06
                                           Regulations (Phase II) (33601-3-At)
                                                                                                                               0                         0

                                        2. Monitoring the Audit of CCC’s FY 2005 Financial
CCC                  11/09/05
                                           Statements (06401-20-FM)
                                                                                                                               0                         0

                                        3. Private Voluntary Organization (PVO) Grant Fund
FAS                  03/15/06
                                           Accountability (07016-1-At)
                                                                                                                     2,175,876                 2,175,876

                                        4. Monitoring of CACFP Providers in Minnesota
FNS                  10/28/05
                                           (27010-18-Ch)
                                                                                                                       265,347                   265,347

                                        5. National School Lunch Program Cost-Reimbursable
                     12/09/05              Contracts with a Food Service Management Company                          6,126,830                 6,126,830
                                           (FSMC) (27601-15-KC)
                                        6. Controls Over APHIS Issuance of GEO Release Permits
Multiagency          12/08/05
                                           (50601-8-Te)
                                                                                                                               0                         0

                                        7. Disaster Assistance Payments for CYs 2001 and 2002
                     02/08/06                                                                                          376,699                   220,003
                                           (50601-9-Te)
RMA                  11/09/05           8. RMA Prevented Planting Claims (05099-11-SF)                                  96,489                     96,489

PREVIOUSLY REPORTED BUT NOT YET RESOLVED
These audits are still pending agency action or are under judicial, legal, or investigative proceedings. Details on the recommendations where
management decisions had not been reached have been reported in previous Semiannual Reports to Congress. Agencies have been informed of
actions that must be taken to reach management decision, but for various reasons the actions have not been completed. The appropriate Under and
Assistant Secretaries have been notified of those audits without management decisions.
                                        9. Safeguards To Prevent Entry of Prohibited Pests and
APHIS                02/20/03
                                           Diseases Into the United States (33601-3-Ch)
                                                                                                                               0                         0

                                        10. Wildlife Services – Aerial Acquisition Procedures
                     09/30/04                                                                                           25,208                     25,208
                                            (33099-1-KC)
                                        11. Transition and Coordination of Border Inspection
                     03/31/05                                                                                                  0                         0
                                            Activities Between USDA and DHS (33601-5-Ch)
                                        12. Implementation of the Listed Agent or Toxin
                     06/23/05                                                                                                  0                         0
                                            Regulations (33601-2-At)
                                        13. APHIS Animal Care Program Inspection and
                     09/30/05                                                                                          689,354                   291,000
                                            Enforcement Activities (33002-3-SF)
                                        14. NSLP FSMCs Midwest Region
FNS                  09/06/01
                                            (27601-24-Ch)
                                                                                                                     3,537,912                   236,749

                     11/21/01           15. CACFP-Wildwood, Inc. Phase II (27010-6-KC)                            36,895,611                 36,895,611
                                        16. Review of Application Controls Automated Price
FSA                  09/30/05
                                            Support Loan Application (03099-195-KC)
                                                                                                                               0                         0

                     09/30/05           17. FSA Compliance Activities (03601-12-Ch)                                 3,741,157                 3,741,157

                                        18. Implementation of the Hazard Analysis and Critical
FSIS                 06/21/00
                                            Control Point System (HACCP) (24001-3-At)
                                                                                                                               0                         0

                                        19. Oversight of Production Process and Recall at ConAgra
                     09/30/03                                                                                                  0                         0
                                            Plant (Establishment 969) (24601-2-KC)
                                        20. HACCP – Compliance by Very Small Plants
                     06/24/05                                                                                                  0                         0
                                             (24601-5-At)




                                                                       USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half                         41
                                                             Impact of the OIG




n                                                                          n                 Total Value at Issuance    Amount With No Mgmt.
         Agency      Date Issued                         Title of Report                                 (in dollars)     Decision (in dollars)
                                   21. Implementation of Agricultural Risk Protection Act
Multiagency         09/30/03
                                       (50099-12-KC)
                                                                                                                   0                         0

                                   22. Homeland Security Issues for USDA Grain and
                    02/23/04                                                                                       0                         0
                                       Commodities Inventory (50099-13-KC)
                                   23. Lender Servicing of Business and Industry (B&I)
RBS                 01/28/02
                                       Guaranteed Loans, Florida (34601-3-At)
                                                                                                         1,536,060                 1,536,060

                                   24. Lender Servicing of B&I Guaranteed Loan in Georgia
                    01/10/03                                                                             3,766,908                 3,706,908
                                       (34601-4-At)
                                   25. RD – Lender Servicing of B&I Guaranteed Loan in
                    08/27/03                                                                             9,145,549                   224,951
                                       Georgia (34601-5-At)
                                   26. Request Audit of B&I Guaranteed Loan in Arkansas
                    09/29/05                                                                             2,502,954                           0
                                       (34099-7-Te)
                                   27. RRH Program Insurance Expenses, Phase II
RHS                 09/28/01
                                       (04601-4-KC)
                                                                                                           596,665                     79,442

                                   28. RD, RRH Program, Tenant Income Verification
                    06/26/03                                                                             7,781,635                 3,183,305
                                       – Gainesville, FL (04004-3-At)
                    09/30/04       29. RRH Project Costs, Cairo, IL (04099-143-Ch)*                       164,000                   164,000
                                   30. Subsidy Payment Accuracy In Multi-Family Housing
                    03/23/05                                                                                       0                         0
                                       Programs (04099-339-At)
                                   31. Monitoring of RMA’s Implementation of Manual 14
RMA                 03/15/02           Reviews/Quality Control Review System                                       0                         0
                                       (05099-14-KC)


RUS                 09/30/05       32. Broadband Grant and Loan Programs (09601-4-Te)                 340,376,319                 30,377,069




    42     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half
                                                            Impact of the OIG




AUDITS WITHOUT MANAGEMENT DECISION                                      require PVOs to open a local bank account in the host
– NARRATIVE FOR NEW ENTRIES                                             country to deposit program funds and make program
                                                                        disbursements in local currency.
1. APHIS – Implementation of the Listed
Agent or Toxin Regulations (Phase II),                                  4. CACFP Providers in Minnesota (27010-18-
(33601-3-At), Issued January 17, 2006                                   Ch), Issued October 28, 2005

APHIS had not ensured that entities were fully complying                Two of the fourteen recommendations remain unresolved.
with regulations regarding security plans; restricting access           FNS is working with OGC to resolve an issue related to
to select agents; training individuals authorized to possess,           the composition of CACFP board members because there is
use, or transfer the agents; and maintaining current                    a potential conflict between FNS guidance and Minnesota
and accurate inventories. APHIS had not promptly or                     State statutes. In addition, FNS needs to take action to
adequately reviewed required security measures at registered            collect $265,347 in questioned costs.
entities, leaving select agents vulnerable to potential theft
or misuse. APHIS agreed with the 13 recommendations                     5. NSLP – Cost-Reimbursable Contracts With
to strengthen controls over its Select Agent Program, and               an FSMC (27601-15-KC), Issued
management decision has been reached for 3 of them.                     December 9, 2005
We are awaiting a response from APHIS to address the
remaining recommendations.                                              One recommendation remains open. Our audit found that
                                                                        SFAs did not enforce contract provisions that required the
2. Monitoring the Audit of CCC’s FY 2005                                FSMC to deduct incentives it received when purchasing
Financial Statements (06401-20-FM), Issued                              food for the schools. We recommended that FNS take
November 9, 2005                                                        action to enforce the contract terms and recover up to
                                                                        $6 million in purchase incentives due to the SFAs’ food
We continue to work with agency representatives to                      service accounts. FNS has agreed to take corrective action
reach management decision for four remaining open                       and is reviewing the contracts to determine the amount to
recommendations relating to system user access, updated                 be reimbursed.
risk assessment documentation, password compliance, and
an integrated financial system.                                         6. Controls Over APHIS Issuance of GEO
                                                                        Release Permits (50601-8-Te), Issued
3. PVO Grant Fund Accountability                                        December 8, 2005
(07016-1-At), Issued March 15, 2006
                                                                        Currently, 8 of our reported 28 recommendations remain
Four of the thirteen recommendations remain unresolved.                 without management decision. We recommended that
The audit identified $2.1 million of questioned costs                   APHIS (1) obtain more information on field tests to
incurred by a PVO and recommended that FAS review                       identify where regulated genetically engineered (GE)
the expenditures and recover any misused or unaccounted                 crops are planted, as well as the final disposition of high-
funds. The FAS Compliance Review Staff prepared an                      risk pharmaceutical and industrial harvests; (2) obtain
initial report on the projects, which is undergoing review              applicants’ scientific protocols for conducting field tests
within FAS. A final Compliance Review Staff report and a                and seek legislative authority to require permit applicants
written FAS determination concerning the recovery of lost               to provide proof of financial responsibility in case of
or misused funds to address the issues raised in the audit              an unauthorized release of GE crops; (3) formalize its
report will be needed to consider management decision.                  inspection process and update its regulations; (4) develop a
Also, FAS will need to amend its Federal Regulations to                 comprehensive tracking system for GE release permits and




                                                                USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half         43
                                                         Impact of the OIG




notifications; and (5) develop guidance on devitalization
deadlines and edible crops. We continue to work with the
agency to reach management decision.

7. Disaster Assistance Payments for CYs 2001
and 2002 (50601-9-Te), Issued
February 8, 2006

Our review of about $1.8 million of CY 2001/2002 Crop
Disaster Program (CDP) payments in three Texas counties
identified improper CDP payments totaling $261,767
(including $2,006 in underpayments) and related improper
Noninsured Crop Disaster Assistance Program payments
totaling $116,938. The improper payments were generally
issued to producers whose applications required special
handling, e.g., producers with crop insurance that was based
on group risk rather than on verified losses per individual
producer, and producers who had production contracts
with vendors (under which the producers may not have had
title to the crops). Management decision is pending receipt
of documentation to support the disposition of improper
payments, e.g., whether FSA agrees with and intends to
recover the amounts.

8. RMA Prevented Planting Claims
(05099-11-SF), Issued November 9, 2005

In California, two insurance providers made improper
payments totaling $96,489 to four cotton producers who
were ineligible to receive prevented planting indemnity
payments in CY 2003, because the insurance providers
did not verify whether the producers were eligible to claim
losses due to failure of the irrigation water supply. We
recommended that RMA recover the improper payments
and that the two insurance providers place the claims
adjusters that processed the questioned claims on notice
for failure to comply with the policies and procedures in
the loss adjustment handbook. Management decision for
the four open recommendations is pending receipt and
evaluation of the corrective actions proposed by RMA.




 44     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half
                                                                             Impact of the OIG




INDICTMENTS AND CONVICTIONS

From April 1 through September 30, 2006, OIG completed                                       217 indictments. Fines, recoveries/collections, restitutions,
127 investigations. We referred 82 cases to Federal, State, and                              claims established, cost avoidance, and administrative
local prosecutors for their decision.                                                        penalties resulting from our investigations totaled about
                                                                                             $78.5 million.
   During the reporting period, our investigations led to
217 indictments and 181 convictions. The period of time                                        The following is a breakdown, by agency, of indictments
to obtain court action on an indictment varies widely;                                       and convictions for the reporting period.
therefore, the 181 convictions do not necessarily relate to the




                                                           Indictments and Convictions
                                                                APRIL 1 – SEPTEMBER 30, 2006

     Agency                                                                                                                Indictments      Convictions*
     AMS                                                                                                                                1             2
     APHIS                                                                                                                            24             22
     ARS                                                                                                                                0             1
     CSREES                                                                                                                             1             1
     FNS                                                                                                                            131            107
     FS                                                                                                                                 1             2
     FSA                                                                                                                              34             22
     FSIS                                                                                                                               6             0
     GIPSA                                                                                                                              5             1
     NASS                                                                                                                               0             1
     NRCS                                                                                                                               0             2
     OIG**                                                                                                                              0             4
     RBS                                                                                                                                6             6
     RHS                                                                                                                                4             5
     RMA                                                                                                                                2             3
     RUS                                                                                                                                2             2
     Totals                                                                                                                        217            181

     *This category includes pretrial diversions.
     **Not OIG or USDA employees, but rather one former employee of a contractor who worked for OIG and three terrorism-related subjects.




                                                                                USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half                45
                                                        Impact of the OIG




OFFICE OF INSPECTOR GENERAL HOTLINE

The OIG Hotline serves as a national receiving point for             which included allegations of participant fraud, employee
reports from both employees and the general public of                misconduct, and mismanagement, as well as opinions
suspected incidents of fraud, waste, mismanagement, and              about USDA programs. Figure 1 displays the volume and
abuse in USDA programs and operations. During this                   type of the complaints we received, and figure 2 displays the
reporting period, the OIG Hotline received 864 complaints,           disposition of those complaints.




       Figure 1.                        Volume and Type of Complaints Received
       Reprisal (1)
       Waste/Mismanagement (138)
                                                                                                        Participant Fraud (474)

       Employee Misconduct (131)




       Opinion/Information (110)


       Health/Safety (10)




       Figure 2.                        Disposition of Complaints Received

       Referred to USDA or Other Agencies for
       Information - No Response Needed (121)                                                 Referred to FNS for Tracking (221)

       Referred to OIG Audit or Investigations
       for Review (12)
       Filed Without Referral -
       Insufficient Information (73)

       Referred to State Agency (58)
                                                                                                    Referred to USDA Agencies
       Referred to Other Law
                                                                                                           for Response (378)
       Enforcement Agencies (1)




  46     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half
                                                   Impact of the OIG




               FREEDOM OF INFORMATION ACT (FOIA) AND PRIVACY ACT (PA)
                                         REQUESTS FOR THE PERIOD APRIL 1
                                             TO SEPTEMBER 30, 2006


Number of FOIA/PA Requests Received                                                                             99
Number of FOIA/PA Requests Processed                                                                            118
 Number Granted                                                                                                  19
 Number Partially Granted                                                                                        45
 Number Not Granted                                                                                              54
Reasons for Denial
 No Records Available                                                                                            19
 Referred to Other Agencies                                                                                       3
 Requests Denied in Full (Exemption 5)                                                                            2
 Requests Denied in Full (Exemption 7A)                                                                          10
 Requests Denied in Full (Exemption 7E)                                                                           1
 Request Withdrawn                                                                                                9
 Fee-Related                                                                                                      0
 Not a Proper FOIA Request                                                                                        1
 Not an Agency Record                                                                                             1
 Duplicate Request                                                                                                4
 Other                                                                                                            4
Requests for OIG Reports From Congress and Other Government Agencies
  Received                                                                                                      13
  Processed                                                                                                     16
Appeals Received                                                                                                 6
Appeals Processed                                                                                                12
 Appeals Completely Upheld                                                                                        6
 Appeals Partially Reversed                                                                                       5
 Appeals Completely Reversed                                                                                      0
 Appeals Requests Withdrawn                                                                                       0
 Other                                                                                                            1
Number of OIG Reports/Documents Released in Response to Requests                                                66

NOTE 1: A request may involve more than one report.
NOTE 2: During this 6-month period, 26 audit reports were posted to the Internet at the OIG Web site:
        http://www.usda.gov/oig




                                                      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half    47
                                                    Abbreviations




                                      Abbreviations of Organizations
 AICPA                  American Institute of Certified Public Accountants
 AMS                    Agricultural Marketing Service
 APHIS                  Animal and Plant Health Inspection Service
 ARS                    Agricultural Research Service
 BLM                    Bureau of Land Mangement
 CBP                    U.S. Customs and Border Protection
 CCC                    Commodity Credit Corporation
 CR                     Office of Civil Rights
 CSC                    Centralized Service Center
 CSREES                 Cooperative State Research, Education, and Extension Service
 DHS                    U.S. Department of Homeland Security
 DRA                    Delta Regional Authority
 FAEC                   Federal Audit Executive Council
 FAS                    Foreign Agricultural Service
 FBI                    Federal Bureau of Investigation
 FCIC                   Federal Crop Insurance Corporation
 FDIC                   Federal Deposit Insurance Corporation
 FEMA                   Federal Emergency Management Agency
 FNS                    Food and Nutrition Service
 FS                     Forest Service
 FSA                    Farm Service Agency
 FSIS                   Food Safety and Inspection Service
 FSU                    Former Soviet Union
 GAO                    Government Accountability Office
 GIPSA                  Grain Inspection, Packers and Stockyards Administration




48    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half
                                     Abbreviations




                      Abbreviations of Organizations
IRS     Internal Revenue Service
MSU     Mississippi State University
NASS    National Agricultural Statistics Service
NFC     National Finance Center
NIST    National Institute of Standards and Technology
NITC    National Information Technology Center
NRCS    Natural Resources Conservation Service
NSDOI   Nebraska State Department of Insurance
OCFO    Office of the Chief Financial Officer
OCIO    Office of the Chief Information Officer
OGC     Office of the General Counsel
OIG     Office of Inspector General
OJO     Office of Judicial Officer
OMB     Office of Management and Budget
OPM     Office of Personnel Management
OSTP    Office of Science and Technology Policy
PCIE    President’s Council on Integrity and Efficiency
RBS     Rural Business-Cooperative Service
RD      Rural Development
RHS     Rural Housing Service
RMA     Risk Management Agency
RUS     Rural Utilities Service
USDA    U.S. Department of Agriculture
WFIT    Wildland Fire Investigations Team




                                      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2006 2nd Half   49
EXAMPLES OF PROGRAM IMPROVEMENT RECOMMENDATIONS MANAGEMENT AGREED TO DURING THIS
REPORTING PERIOD (186 TOTAL)

n   APHIS agreed to provide additional guidance on preparing           n    FNS agreed to require (1) the regional offices to
    and responding to HPAI or notifiable AI outbreaks in                    revise their management evaluations of State EBT
    live bird markets or other “off farm” environments; and                 operations to include tests of whether the States
    finalize interagency coordination on the process and                    conducted proper system access reviews and (2)
    procedures for notifying owners of susceptible animals of               States to implement a formal process for use during
    the current infectivity risks, and the necessary protective             EBT POS equipment replacement that would prevent
    actions they should take when an outbreak of AI occurs.                 retailers from fraudulently obtaining equipment.
n   FS agreed to assign a high-level official at the                   n    RHS’ CSC agreed to conduct a cost-benefit analysis
    Washington office to be responsible for the overall                     and use a random sample to determine the overall
    safety and security of the FS’ explosives/munitions                     error rate in its universe of payment subsidies.
    program and establish a realistic timeframe for
                                                                       n    ARS agreed to ensure that (1) its collaborators
    implementing all remaining security recommendations.
                                                                            conduct site visits to the FSU institutes annually and
n   FSIS agreed to (1) strengthen its procedures to ensure                  that the science centers consistently conduct on-
    that all establishments subject to Salmonella testing                   site monitoring of the FSU projects, (2) all quarterly
    are identified and included in the testing database,                    technical reports are submitted and reviewed with
    (2) develop a risk assessment to determine which                        timely feedback provided, and (3) program funds are
    establishments need to be tested for Salmonella, and (3)                used appropriately and costs incurred are allowable.
    obtain scientific advice to evaluate whether its policy of not
    testing certain raw ground beef products for
    E. coli O157:H7 contamination should be continued.



MISSION OF OIG

OIG assists USDA by promoting effectiveness and integrity in the hundreds of programs of the Department. These
programs encompass a broad spectrum, involving such areas as consumer protection, nutrition, animal and plant health,
agricultural production, agricultural product inspection and marketing, rural development, research, conservation, and
forestry. They affect our citizens, our communities, and our economy.


OIG STRATEGIC GOALS

We have focused nearly all of our audit and investigative direct resources on our three strategic goals:

Support USDA in the enhancement of safety and security measures to protect USDA and agricultural resources and in
related public health concerns.

Reduce program vulnerabilities and enhance integrity in the delivery of benefits to individuals.

Increase the efficiency and effectiveness with which USDA manages and employs public assets and resources, including
physical and information resources.
                                                    To learn more about OIG, visit our Web site at
                                                            www.usda.gov/oig/home.htm

                                              How To Report Suspected Wrongdoing in USDA Programs

                                                               Fraud, Waste, and Abuse:

                                                          In Washington, DC: 202.690.1622
                                                              Outside DC: 800.424.9121
                                                          TDD (Call Collect): 202.690.1202

                                                   Bribes or Gratuities: 202.720.7257 (24 hours)
                                                             888-620-4185 (24 hours)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all its programs and activities on the basis of race, color, national
origin, age, disability, and where applicable, sex, marital status, familial status, parental status, religion, sexual orientation, genetic
information, political beliefs, reprisal, or because all or part of an individual’s income is derived from any public assistance program. (Not all
prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA’s TARGET Center at (202) 720–2600 (voice and TDD). To file a complaint of
discrimination, write to USDA, Director, Office of Civil Rights, 1400 Independence Avenue, S.W., Washington, D.C. 20250–9410, or call (800)
795–3272 (voice) or (202) 720–6382 (TDD). USDA is an equal opportunity provider and employer.
